<html>
<title> - A CALL TO ACTION: NARCO-TERRORISM'S THREAT TO THE SOUTHERN U.S. BORDER</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 A CALL TO ACTION: NARCO-TERRORISM'S THREAT TO THE SOUTHERN U.S. BORDER

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT,
                     INVESTIGATIONS, AND MANAGEMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 14, 2011

                               __________

                           Serial No. 112-51

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
73-738                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0562756a45667076716d6069752b666a682b">[email&#160;protected]</a>  


                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, INVESTIGATIONS, AND MANAGEMENT

                   Michael T. McCaul, Texas, Chairman
Gus M. Bilirakis, Florida            William R. Keating, Massachusetts
Billy Long, Missouri, Vice Chair     Yvette D. Clarke, New York
Jeff Duncan, South Carolina          Danny K. Davis, Illinois
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                  Dr. R. Nick Palarino, Staff Director
                   Diana Bergwin, Subcommittee Clerk
              Tamla Scott, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Oversight, Investigations, and Management:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable William R. Keating, a Representative in Congress 
  From the State of Massachusetts, and Ranking Member, 
  Subcommittee on Oversight, Investigations, and Management......     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     7

                               Witnesses

Mr. Todd Staples, Commissioner, Texas Department of Agriculture:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
General Barry R. McCaffrey (Ret.), President, BR McCaffrey 
  Associates, LLC:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
Major General Robert H. Scales (Ret.), President, Colgen, LP:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25
Ms. Sylvia Aguilar, Chief Deputy, El Paso County Sheriff's Office 
  Headquarters:
  Oral Statement.................................................    28
  Prepared Statement.............................................    29
Dr. Michael Vickers, Rancher and Veterinarian, Las Palmas 
  Veterinary Hospital:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32

                             For the Record

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Oversight, Investigations, and Management:
  Article, Austin-American Statesman.............................    18
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas:
  Slides.........................................................    49
The Honorable Silvestre Reyes, a Representative in Congress From 
  the State of Texas:
  Letter.........................................................    59


 A CALL TO ACTION: NARCO-TERRORISM'S THREAT TO THE SOUTHERN U.S. BORDER

                              ----------                              


                        Friday, October 14, 2011

             U.S. House of Representatives,
    Subcommittee on Oversight, Investigations, and 
                                        Management,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:11 a.m., in 
Room 311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the subcommittee] presiding.
    Present: Representatives McCaul, Bilirakis, Duncan, 
Keating, Thompson (ex officio), and Clarke.
    Also present: Representatives Cuellar, Al Green of Texas, 
Reyes, and Jackson Lee.
    Mr. McCaul. The committee will come to order.
    I understand Dr. Vickers will be joining us soon, but we 
have votes scheduled in about 15 minutes, so I need to begin 
the proceeding. We will give our opening statements and see how 
much time we have before the votes.
    I want to thank the witnesses for traveling, coming up here 
to Washington, and my ag commissioner, Todd Staples, coming all 
the way from Austin, Texas. I appreciate you all showing up 
here today.
    The purpose of this hearing is to examine the threat to the 
Southern Border due to narco-terrorism.
    Before I begin my opening statement, I see that Mr. 
Cuellar, Mr. Reyes, and Mr. Green are here. I think also Mr. 
Farenthold will be joining us. I ask unanimous consent that 
they be allowed to sit on the dais for the hearing today.
    Hearing no objection, so ordered.
    I am glad to see so much interest on the other side of the 
aisle in attending this hearing, as well. I think we will have 
a very spirited debate, a very important debate.
    Today we meet to examine the threat facing our Nation along 
the Southwest Border from a strategic military perspective from 
the testimony of two of our Nation's finest generals and a 
commissioner from Texas, whose farmers and ranchers live with 
the daily threats from the drug cartels.
    Earlier this week, we learned that a plot was foiled in 
which a U.S. informant, posing as a member of a Mexican drug 
cartel, was approached by a terrorist plotting to assassinate 
the Saudi Ambassador to the United States. Although the attack 
was thwarted, this incident implies the existence of ties 
between terrorists and the drug cartels. It is unlikely that 
this sensitive Iranian mission would have been this terrorist 
group's first attempted encounter with the drug cartels. 
Indeed, it underscores the need to examine the deteriorating 
situation in Mexico and our border security initiatives.
    This hearing also comes on the heels of the release of an 
eye-opening report by General Barry McCaffrey and General 
Robert Scales, entitled, ``Texas Border Security: A Strategic 
Military Assessment.'' This is a copy of the report that I know 
you are submitting to this committee here today, and I intend 
to submit this report to the Secretary of Homeland Security, 
Ms. Napolitano.
    This report and past hearings held by the subcommittee 
underscore the need for a comprehensive review of the Federal 
Government's role in protecting the border.
    Violence in Mexico is spreading in ways that increasingly 
show characteristics of terrorism. The discovery of 32 bodies 
in Veracruz, the dumping of 35 bodies on a busy Mexican 
expressway--I know we had slides up here that demonstrate the 
visuals--and the placement of severed heads at the entrance of 
a primary school in an effort to extort money from teachers are 
all examples of the violent and disturbing actions of the 
Mexican-based drug cartels.
    I have introduced legislation that would designate the 
cartels as foreign terrorist organizations. The bill states, 
``Foreign drug cartels have used brutal tactics of violence and 
the threat of violence against United States citizens to 
protect and expand their drug trade as well as their areas of 
operation.''
    Indeed, reports from law enforcement on both sides of the 
border underscore these violent extremes. According to the 
Texas Department of Public Safety, a review of information from 
multiple sources shows 224 decapitations have been reported in 
Mexico since 2009, including 64 since January to June 2011. In 
at least eight instances since 2009, bullets fired from Mexico 
crossed into Texas. Since 2009, there have been at least 64 
border-related shootings at U.S. law-enforcement officers in 
Texas. Since 2008, smugglers in Texas have deployed spikes to 
disable U.S. patrol vehicles in 77 incidents. Since 2004, there 
have been at least 120 drug-related and alien-related 
kidnappings reported in Texas.
    The McCaffrey-Scales report lays out in detail the threat 
the cartels pose to the United States and steps we can take to 
combat the hostility. The report concludes that cartels exploit 
creases within the ranks of American authorities in order to 
penetrate the border. This leads to channeling of both drugs 
and violence into the United States.
    This report reveals that the cartels' intention is to 
influence all levels of government throughout the Americas; 
that the cartels' intention is to establish sanctuary zones in 
the United States one county deep; that the U.S. tactical 
efforts to stop cartel incursions are poorly resourced and 
vulnerable to corruption; and the increasing likelihood that 
competition to control distribution territories and corridors 
will result in greater violence in Texas as the Mexican 
military gains more control in Mexico.
    The 2011 National Drug Threat Assessment conducted by the 
Department of Justice buttresses the conclusions of the 
McCaffrey-Scales report. It notes that transnational criminal 
organizations are now operating in more than 1,000 cities in 
the United States. According to the Department's assessment, 
these cities now span all nine Organized Crime Drug Enforcement 
Task Force regions and enable Mexican-based cartels to operate 
more extensively in the United States. The problem has 
manifested itself into a national network of criminal activity 
driven and organized by the drug cartels.
    McCaffrey and Scales outline the innovative and 
groundbreaking efforts of Texas authorities to pool resources 
and fight back against the encroachment of the cartels on Texan 
and American sovereignty. Through their unified commands and 
joint operations and intelligence centers, Texas officials have 
provided an effective model for other States dealing with the 
narco-criminal threat.
    As the report notes, the Texas campaign against the cartels 
has proven the value of a control scheme that involves State, 
local, and Federal partnerships without sacrificing the 
sovereignty of any agency. Texas has taken the bold and 
necessary steps to protect its citizens that the Federal 
Government has failed to implement. We are here today to learn 
more about these efforts and how they might be helpful as a 
model going forward for the Nation.
    I am honored to have these esteemed public servants before 
this committee here today, and I look forward to your 
testimony. I look forward to the spirited debate that we will 
have at this committee and the dialogue on this threat to our 
Nation that is constantly growing stronger and consistently 
evolving.
    [The statement of Mr. McCaul follows:]

                Statement of Chairman Michael T. McCaul
                            October 14, 2011

    Today we meet to examine the threat facing our Nation along the 
Southwest Border from a strategic military perspective, from the 
testimony of two of our Nation's finest generals, and a commissioner 
from Texas whose farmers and ranchers live with the daily threats from 
drug cartels.
    Earlier this week we learned that a plot was foiled in which a U.S. 
informant, posing as a member of a Mexican drug cartel, was approached 
by terrorists plotting to assassinate the Saudi Ambassador to the 
United States.
    Although the attack was thwarted, this incident implies the 
existence of ties between terrorists and the drug cartels. It is 
unlikely this sensitive Iranian mission would have been this terrorist 
group's first attempted encounter with the drug cartels. Indeed, it 
underscores the need to examine the deteriorating situation in Mexico 
and our border security initiatives.
    As my legislation, H.R. 1270 states, ``Foreign drug cartels have 
used brutal tactics of violence and the threat of violence against 
United States citizens to protect and expand their drug trade and as 
well as their areas of operation. In September 2010, American David 
Hartley was shot by the Mexican drug cartel, the Zetas, while jet 
skiing, because he unknowingly came too close to their avenues for drug 
smuggling across Falcon Lake in Texas. In February 2011, Special Agent 
Jaime Zapata, an Immigration and Customs Agent, was murdered by the 
Zetas while on duty in Mexico. These are only two cases of many where 
American lives have been lost or threatened due to the actions of drug 
cartels.''
    ``When Americans at home and abroad, including agents assigned to 
protect United States borders and national security, are targeted, 
threatened, and attacked by such foreign entities, it serves a 
continual threat to the safety and security of the United States and 
its people.''
    This hearing also comes on the heels of the release of the eye-
opening report by General Barry McCaffrey and General Robert Scales, 
``Texas Border Security: A Strategic Military Assessment.'' Their 
report and past hearings held by this subcommittee underscore the need 
for a comprehensive review of the Federal Government's role in 
protecting the border.
    Violence in Mexico is spreading in ways that increasingly show 
characteristics of terrorism. The discovery of 32 bodies in Veracruz, 
the dumping of 35 bodies on a busy Mexican expressway, and the 
placement of severed heads at the entrance of a primary school in an 
effort to extort money from teachers, are all examples of the violent 
and disturbing actions of Mexican-based drug cartels.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    According to the Texas Department of Public Safety, a review of 
information from multiple sources shows 224 decapitations have been 
reported in Mexico since January 2009 including 64 from January to June 
2011.
  <bullet> In at least 8 instances since 2009, bullets fired from 
        Mexico crossed into Texas.
  <bullet> Since 2009 there have been at least 64 border-related 
        shootings at U.S. law enforcement officers in Texas.
  <bullet> Since 2008, smugglers in Texas have deployed spikes to 
        disable U.S. patrol vehicles in 77 incidents.
  <bullet> Since 2004 there have been at least 120 drug-related and 
        alien-related kidnappings reported in Texas.
    The McCaffrey/Scales report lays out in detail the threat the 
cartels pose to the United States and steps we can take to combat the 
hostility. The report concludes that cartels exploit ``creases'' within 
the ranks of American authorities in order to penetrate the border. 
This leads to channeling of both drugs and violence into the United 
States. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The report reveals:
  <bullet> The cartels' intention to influence all levels of government 
        throughout the Americas.
  <bullet> The cartels' intention to establish sanctuary zones in the 
        United States one county deep.
  <bullet> That U.S. tactical efforts to stop cartel incursions are 
        poorly resourced and are vulnerable to corruption.
  <bullet> And, the increasing likelihood that competition to control 
        distribution territories and corridors will result in greater 
        violence in Texas, as the Mexican military gains more control 
        in Mexico.
    The 2011 National Drug Threat Assessment conducted by the 
Department of Justice, buttresses the conclusions of the McCaffery/
Scales report. It notes that Transnational Criminal Organizations are 
now operating in more than one thousand cities in the United States. 
According to the department's assessment, these cities now span all 
nine Organized Crime Drug Enforcement Task Force regions and enable 
Mexican-based cartels to operate more extensively in the United States. 
The problem has manifested into a national network of criminal 
activity, driven and organized by the drug cartels.
    McCaffery and Scales outline the innovative and groundbreaking 
efforts of the Texas authorities to pool resources and fight back 
against the encroachment of the cartels on Texan and American 
sovereignty. Through their Unified Commands and Joint Operations and 
Intelligence Centers, Texas officials have provided an effective model 
for other States dealing with the narco-criminal threat. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As the report notes, ``The Texas Campaign against the cartels has 
proven the value of a control scheme that involves state, local, and 
federal partnerships without sacrificing the sovereignty of any 
agency.'' Texas has taken the bold and necessary steps to protect its 
citizens and that the Federal Government has failed to implement. We 
are here today to learn more about these efforts and how they might be 
helpful as a model going forward.
    I am honored to have such esteemed public servants before the 
subcommittee today. I look forward to their testimony so that we may 
continue the dialogue on this threat to our Nation that is constantly 
growing stronger and consistently evolving.

    Mr. McCaul. With that, I now recognize the Ranking Member, 
the gentleman from Massachusetts--I call it the Boston-Austin 
connection, that is still alive and well--Mr. Keating, for 5 
minutes for an opening statement.
    Mr. Keating. Well, thank you, Mr. Chairman. Thank you for 
conducting this hearing.
    I also want to thank our Ranking Member, Mr. Thompson. He 
is extraordinary with his time, I have found, in this 
committee, and it is appreciated.
    Without a doubt, the violence in Mexico has reached 
astronomical proportions. But it is important, I think, also, 
as we are conducting the hearing, to sort of take a view from 
30,000 feet up and gain a perspective of some of the progress 
we have made on our side of the border.
    According to the uniform crime reporting from the Federal 
Bureau of Investigation and Texas law enforcement agencies, the 
murder rate in Texas border communities remains at an all-time 
low. In fact, according to FBI data, the homicide rate along 
the U.S. side of the Southwestern Border has actually decreased 
by as much as 14 percent over the last 3 years.
    On the other side of the border, in the Mexican city of 
Juarez, more than 2,700 murders occurred in 2010. While there 
were only four murders in El Paso during the same time frame, 
as a former district attorney, one murder is too many. 
Likewise, there were 472 murders in Tijuana, and 29 occurred on 
the other side of the border in San Diego.
    They also give perspective to the fact that violence 
spilling over from Mexico into the United States, while 
extremely important to prevent, has been declining. 
Furthermore, kidnappings in the Southwestern States, which are 
not included in the FBI's Uniform Crime Report, are also on the 
decline.
    What is a concern, however, is that the great strides which 
the Department of Homeland Security and the Department of 
Justice have taken through the FBI, ATF, and DEA risk setbacks 
due to cuts made to the agencies in budget cuts by this 
Congress. Plans to cut funds for border security by more than 
$350 million and reduce approximately 1,000 border-security 
agents--that is just not going to lead us in the right 
direction, in terms of enforcement.
    The presence of Customs and Border Protection agents, 
Immigration and Customs Enforcement agents, along with State 
and local enforcement, deters violent actors from crossing over 
into the border communities. I, therefore, thank the brave men 
and women that are involved in this for their service.
    I am concerned that living in the border communities 
adjacent to the country where violence has taken a stronghold 
must, indeed, have its challenges, as we saw with the 
Chairman's opening statement. I, therefore, respect our 
witnesses, who have traveled a long way to tell their story, 
and I look forward to not only hearing their testimony but 
following up with real action and also to continue to do my 
part and all of our parts on this committee to keep our Nation 
safe and our borders secure.
    We also need to address the flood of guns from the United 
States into Mexico that feeds narco-terrorism. Until then, we 
will be fighting, overall, a losing battle.
    I am pleased that Deputy Aguilar will testify today as a 
boots-on-the-ground person. She will provide us with a true 
depiction of crime and law enforcement efforts along the 
border. I specifically look forward to hearing her perspective 
of the impact of narco-terrorism on U.S. businesses, like the 
agricultural industry.
    I would also like to welcome two great heroes to the 
hearing, General McCaffrey and General Scales, as well as 
Commissioner Staples and Dr. Vickers. I know you have traveled 
a great distance to be here, and I look forward to hearing your 
testimony.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. McCaul. I thank the Ranking Member.
    The Chairman now recognizes the Ranking Member of the full 
committee, the gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman, for 
conducting today's hearing.
    I would like to thank our witnesses for traveling here to 
testify before this committee.
    The purpose of today's hearing is to examine the threat of 
Mexico's drug trade on our Southwestern Border. Over the past 
few years, this committee has conducted numerous hearings on 
violence occurring on the Mexican side of the Southwest Border. 
We have also examined the numerous efforts undertaken by our 
Government to assist our Mexican allies in disrupting and 
dismantling Mexican drug-trafficking organizations, otherwise 
known as DTOs.
    These hearings have also explored an on-going question of 
how much crime actually spills over from Mexico into the United 
States. On one hand, criminal statistics indicate that border 
communities are among the safest in the United States. In fact, 
there is less crime in some Texas cities on the border than 
what occurs right here in the Nation's Capital. As we know, 
crime all over the country stems from a variety of sources. 
Being able to pinpoint where the crime occurs in Texas that 
would have occurred regardless of its proximity to Mexico and 
crimes that occur because it is spillover from Mexican drug-
related activities is not an easy task.
    I commend both Generals McCaffrey and Scales for taking on 
this challenge. However, if what is contained in their report 
is deemed to be true, that would mean that I would have to 
disregard the most widely cited and concrete evidence of crime 
in the United States, the FBI Uniform Crime Report.
    According to the FBI, the homicide rate along the U.S. side 
of the Southwestern Border has actually decreased by as much as 
14 percent over the last 3 years. These numbers show a clear 
distinction between political rhetoric and proven facts.
    According to the report, FBI criminal statistics do not 
accurately reflect crime in the border communities because 
violence goes unreported or under-reported because witnesses to 
crimes are often afraid to testify, out of fear of Mexican drug 
DTOs. However, the report does not provide any concrete 
evidence of proof to support this bold claim.
    I will readily admit that in recent years violence in 
Mexico has reached an all-time high. However, despite dire 
predictions, statistics and concrete evidence show that the 
violence has not spilled over into the United States. In fact, 
the violence occurring in Mexico is highly concentrated and, in 
many instances, limited to drug-trafficking corridors, some of 
which are hundreds of miles away from the United States border.
    There is a need to bring awareness to this unique situation 
faced by Texas border citizens. However, we must also assure 
people living outside of Texas that border towns are safe for 
travel, trade, and commerce and that violent-crime rates have 
always remained flat or decreased in border communities in the 
Southwest.
    I would be remiss if I did not mention that, despite 
strides made to increase personnel on the border, Republican-
sponsored budget cuts threaten to take us backwards. This 
Congress, the Majority, introduced H.R. 1, which cuts $350 
million from the Department of Homeland Security's budget for 
border security, fencing, and technology. Just yesterday, on an 
authorizing bill, we voted down, this committee, Republicans on 
this committee, an effort to add 1,000 Border Patrol agents to 
the patrols.
    You can talk tough, but when it comes time to putting your 
money where the tough talk is, somehow it is not there.
    The Department of Homeland Security must have all the 
resources and authorities it needs to protect our borders. As 
Members of Congress, we must align our budget priorities with 
where we claim help is needed.
    I look forward to hearing from our witnesses.
    Mr. McCaul. I thank the Ranking Member.
    I would like to just state for the record that yesterday I 
was very proud to introduce several border-security measures 
that my good friend Henry Cuellar supported, and, I think most 
significantly, doubling the size of the BEST teams down on the 
border, which can confiscate the cash and weapons going 
southbound. We more than doubled the size of those teams, and I 
think that is going to go a long ways in this effort.
    With that being said, Members are advised that we have 
votes. I understand we have 2 minutes left on the clock to 
vote, so we will have to run very quickly. We have two votes, 
and will be back probably in about 30 minutes. I will then 
introduce the witnesses, and I look forward to the testimony.
    Thank you.
    [Recess.]
    Mr. McCaul. All right, the committee will come back to 
order.
    I appreciate the witnesses' patience. I think that is the 
last series until about 2 o'clock, so this should be 
uninterrupted.
    I would like to introduce the witnesses and then hear the 
testimony.
    First, we have Mr. Todd Staples, who is a good friend of 
mine, from the great State of Texas. He is the 11th Texas 
commissioner of agriculture and was reelected to serve a second 
4-year term in this State-wide office. As the ag commissioner, 
Mr. Staples is uniquely positioned to address the security of 
our U.S.-Mexico border through the eyes and experience of the 
Texas ranchers and farmers.
    Earlier this year, the Texas legislature passed House Bill 
4, which directed the Texas Department of Agriculture to 
conduct an assessment of the impact of illegal activity along 
the Texas-Mexico border on rural landowners and the agriculture 
industry, working in conjunction with other appropriate 
entities to develop recommendations to enhance border security. 
The legislative requirement culminated in the report that we 
are examining at this hearing here today.
    Next, we have the distinguished General Barry McCaffrey. He 
served in the United States Army for 32 years and retired as a 
four-star general. He currently is the president of BR 
McCaffrey Associates. For 5 years after leaving the military, 
General McCaffrey served as the Nation's Cabinet officer in 
charge of U.S. Drug Policy. After leaving Government service, 
he served as the Bradley Distinguished Professor of 
International Security Studies and then as an adjunct professor 
of international security studies at the United States Military 
Academy at West Point.
    Next, we have Major General Robert Scales. He is currently 
the president of COLGEN. Dr. Scales served over 30 years in the 
Army, retiring as a major general, and ended his military 
career as the commandant of the United States Army War College. 
In 1995, he created the Army After Next program, which was the 
Army's first attempt to build a strategic game and operational 
concept for future land warfare. He is a frequent consultant 
with the senior leadership of every service in the Department 
of Defense as well as many allied militaries.
    Generals, it is very great to have you here today. Thank 
you so much.
    Next, we have Ms. Sylvia Aguilar, who is the deputy chief 
of El Paso's Sheriff's Office and commands the Major Crimes 
Bureau. Deputy Chief Aguilar has been an El Paso police officer 
for over 22 years. She has been in command of several units, 
including the Special Services Division, Office of Operations 
and Northeast Regional Command.
    Thank you so much for being here, as well.
    Finally, we have Dr. Michael Vickers. He is a veterinarian 
and rancher from Falfurrias, Texas. Frustrated by the amount of 
vandalism and trespassing taking place on his property, he 
started a group called the Texas Border Volunteers to help law 
enforcement gain control over the smuggling of drugs and people 
through private property. Dr. Vickers has been featured on 
numerous media outlets to discuss border security, including 
``Greta Van Susteren'' and National Geographic's ``Border 
Wars.''
    The Chairman now recognizes Commissioner Staples for his 
testimony.

 STATEMENT OF TODD STAPLES, COMMISSIONER, TEXAS DEPARTMENT OF 
                          AGRICULTURE

    Mr. Staples. Thank you, Chairman McCaul, Ranking Members 
Keating and Thompson, Members of Congress. Thank you for your 
service to our country.
    For the record, I am Todd Staples, Texas commissioner of 
agriculture.
    I certainly wish we were here today celebrating the 
productivity of American agriculture and the fact that because 
of the hard work of our Nation's farmers and ranchers, American 
consumers enjoy the safest, the most affordable, and the most 
reliable food supply in the world. Unfortunately, we are not.
    We are here today because farmers and ranchers throughout 
the Texas border area have been intimidated, have been chased 
off their own property, they have been assaulted by a violent 
criminal organization that is running drugs and people across 
the farms and ranches of Texas. It is because of their concerns 
that I raised--and, quite frankly, their concerns were 
rebuffed, they were repudiated. We received lame jokes when we 
brought this to the attention of the administration.
    So I asked in cooperation with the Texas legislature and 
commissioned a strategic assessment of our Texas border from 
two senior military officials who have experience securing 
borders all across the globe and asked for an independent, 
nonpartisan assessment so that we can know the circumstances 
and facts that we live with.
    Now, I want to, first of all today, say that Mexico is an 
extremely valuable trading partner with Texas. Mexico is 
Texas's No. 1 trading partner. Mexico is the second-largest 
export market for the United States of America for all 
products. The trade is measured in hundreds of billions of 
dollars. The economy along the Texas-Mexico border is very 
dynamic. It is a tremendous part of the Texas economy and the 
U.S. economy. It is this legal trade that we seek to preserve.
    But it is undeniable that farmers and ranchers are coming 
forward and telling horrific stories that I refuse to accept as 
a status quo. I will say that our local sheriffs are doing a 
tremendous job. Our city police are working valiantly. Our 
Federal agents that are there and our State law enforcement 
along the border are all doing an admirable job. But in Texas, 
across the 1,241-mile border, it is porous. We are having our 
farmers and ranchers being chased off their property, and we 
have first-hand testimony of that.
    Now, no one is blaming any national leader for the heinous 
crimes and the seedy motives of these transnational criminal 
organizations. But when we say the border is safer than ever, 
it signals defeat, it signals that we are going to accept the 
status quo. No American should be satisfied that we don't have 
the right to use and enjoy our property. We need greater 
Federal resources in order to defend what is a porous border.
    Now, statistics have been cited, and I know that there are 
statistics that we could go back and forth across today. But it 
is undeniable that drugs weighed by the ton are flowing to 
urban cities across America, and it is also undeniable that 
dollars counted in the billions are flowing south. They didn't 
just appear in those communities; they came across our border 
somehow.
    I am here today asking for common ground so that we can 
have the Federal resources. I heard from some of the testimony 
that that is a common issue, that we do agree there needs to be 
a greater enforcement and greater number of Border Patrol 
officials.
    This document that I submitted as a part of my testimony 
clearly demonstrates that California, Arizona, and New Mexico 
have 14 border agents per border mile. I am very grateful for 
that. Texas averages barely over 6, based on the latest numbers 
that were provided to us.
    We need greater Federal resources. We are asking for your 
help. We thank you for your attention today.
    [The statement of Mr. Staples follows:]

                   Prepared Statement of Todd Staples
                            October 14, 2011

    Thank you, Mr. Chairman and Members of the committee, for the 
opportunity to testify before you today. I am Todd Staples, Texas 
Commissioner of Agriculture.
    Texas Border Security: A Strategic Military Assessment documents in 
clear terms, we have a violently insecure, porous border, with a lack 
of operational control. Texas is simply calling for sufficient action--
ample Federal resources to secure our country. No one is blaming our 
National leaders for the drug cartels' seedy motives and heinous 
actions--but saying ``our border is safer than ever'' signals two 
dangerous messages to these narco-terrorist organizations that are 
infiltrating America: No. 1, we are satisfied with the status quo, and 
No. 2, we are not going to drive you out of business. Congressmen, the 
only message from a united America should be this: We will meet any 
opposing force with greater force and we will not cede 1 inch of 
American soil.
    This committee knows first-hand from testimony and field hearings 
the threats in Mexico that have been well documented as well as our law 
enforcement and foreign aid efforts at the National, State, and local 
levels to counter these violent transnational criminal organizations. 
At this very moment a critical industry to our National security is 
under increasing attack. Texas farmers and ranchers along the U.S.-
Mexico border are regularly becoming victims of intimidation, 
aggression, and outright violence by armed trespassers that often have 
direct ties to Mexico's drug cartels. With alarming frequency, Texans 
along the border are subjected to physical harassment, illegal 
trespassing, property damage, theft, and the illegal trafficking of 
people and drugs on their property.
    I come to you today to say we must not minimize the actions of 
terrorists. This border assessment tells the stories of farmers, 
ranchers, and rural landowners who have been victims of violence; who 
witness grim atrocities on a far-too-frequent basis; and generally live 
in fear of those who cross their land day and night. Americans should 
be offended that statistics are being used to diminish the crimes 
committed against their fellow citizens by narco-terrorists.
    Let me be clear, this is happening on our side of the border and 
each day that they threaten a farmer or rancher, they get closer to 
impacting our Nation's food supply.
    American agriculture produces the safest, most affordable, and most 
reliable food and fiber supply in the world--and Texas is a major 
contributor to those production efforts. Despite an on-going drought 
and raging wildfires, the Texas agriculture industry has shown 
significant strengths in a trying time for the U.S. economy. We 
continue to lead the Nation in the production of cattle, cotton, sheep, 
goats, mohair, and many other products that American consumers rely on 
daily. Agriculture is also a significant sector of the Texas economy, 
producing an economic impact of about $100 billion a year. Mexico is 
the No. 2 export market for the United States and our No. 3 source of 
imports. It is this legal trade that we seek to preserve.
    Let me give you a snapshot of the grave danger Texans face due to 
an insecure border. These are only some of the acts of violence these 
transnational criminal organizations have taken in the past few months:
  <bullet> On Feb. 18--Two energy company employees were assaulted and 
        robbed in rural Webb County;
  <bullet> On March 11--A ranch foreman was injured from shots fired by 
        suspected drug cartel members in rural Webb County;
  <bullet> On June 9--Texas DPS and Game Wardens were shot at by drug 
        traffickers in rural Hidalgo County;
  <bullet> On June 19--U.S. Border Patrol was shot at by drug 
        traffickers in an area that has seen repeated shootings aimed 
        at U.S. law enforcement in Hidalgo County;
  <bullet> On July 14--Shots fired at water district workers in rural 
        Hidalgo County;
  <bullet> On Sept. 27--Shots fired, killing at least one individual, 
        on Hidalgo County highway;
  <bullet> The personal testimony of the farmers, ranchers, and 
        employees being told to ``turn around, look the other way, 
        leave your property, or else,'' while cartel members run drugs 
        and humans through private Texas properties.
    All of these incidents--which law enforcement believes were caused 
by criminals linked to the cartels--have taken place this year, not on 
the southern side of the border as many would have you believe, but 
rather on American soil in Texas. We cannot allow the livelihoods and 
peaceful enjoyment of private property to continue to be jeopardized. 
We cannot allow our standards to devolve to a new tolerance threshold 
for violence against private property owners. In addition to acts of 
violence, Texans are witnessing the direct consequences of narco-
terrorism and organized crime. Rural residents experience the human 
tragedy of finding dead bodies on their properties--those of the sick 
and frail who fell behind and were left to die by the traffickers. 
These well-documented cases are proof that these terrorists do not shed 
their label simply by stepping into the United States to bring 
organized crime and traffic drugs, people, weapons, and money.
    We've heard of farmers selling out and closing their operations. We 
are talking about our domestic food supply. We cannot stand by and 
watch terrorists frighten farmers out of agriculture. We do not like 
being dependent on foreign oil; we must not become dependent on foreign 
food.
    Transnational terrorists do not send their activity reports to the 
Homeland Security Secretary. We all know drug trafficking and human 
smuggling is occurring at alarming rates. During the Super Bowl in 
Dallas this past year, the Texas Attorney General's office focused 
resources to assist local law enforcement in combating underage 
prostitution and concerned faith-based organizations led a campaign 
during the Super Bowl to bring awareness to this issue. Are we really 
pretending there is not a problem?
    We all know the transnational criminal activity has been heading to 
our border. What I'm telling you today is they are here, they have 
arrived and we need to stop making excuses, stop blaming each other, 
and stop this incursion before the violence statistics exceed the 
naysayer's thresholds of tolerance. I for one have no tolerance for 
these transnational criminals trespassing on the soil, the sovereignty, 
and the rights of the United States of America.
    The reality is our porous border is a problem for all Americans--
not just those at the border. Law enforcement in New York, Los Angeles, 
Dallas, and Houston have confirmed that cartels have gangs operating in 
these cities. How can the border be called secure when fierce assaults 
continue against American citizens on American soil; nightly incursions 
occur across Texas ranches; and dead bodies are scattered throughout 
private properties?
    Unfortunately, the administration and others have repeatedly said 
the U.S.-Mexico border is ``as secure now as it has ever been.'' While 
I acknowledge the progress and the gains made in urban border areas; 
the drugs in American cities and the cash flowing south say that 
interpretation is simply untrue. The increases in Federal support have 
resulted in two scenarios along the Texas-Mexico border: (1) Lower 
crime rates in urban border communities like Brownsville and El Paso, 
and (2) a rural run-around of the drug cartels now focusing their 
efforts where there is the weakest presence of Federal border 
enforcement. Keep in mind that 93 percent of the land in counties along 
the Texas-Mexico border is unincorporated and overwhelmingly rural.
    The bottom line is our border is not secure. What we have are 
transnational criminal organizations basing their operations in a 
foreign country and deploying military-type incursions on American 
soil. And our President indicates this is okay by saying we are more 
secure today? Members of Congress, please do not rest until we convince 
the President, an insecure border is an insecure America.
    Texas is home to 64 percent of the U.S.-Mexico border, but only 44 
percent of the Border Patrol agents. There are 14 Border Patrol agents 
per border mile on average from California to New Mexico. Yet there are 
less than half that many per mile in Texas at 6.2 agents per border 
mile. I assure you, and so do Generals McCaffrey and Scales in their 
report, there is no reason for Texas to have anything but a higher 
presence of Federal law enforcement. One of which is to overturn and 
prevent a strategically beneficial, centrally located entry point for 
their drugs into the United States. The use of hub cities in Texas such 
as Austin and Dallas, already serve as gateways to transport drugs to 
markets across the United States.
    Each time the Federal Government denies there is a problem, only 
the cartels and traffickers benefit--they gain courage and territory. 
The Federal Government must act now and do more to protect America. Our 
lives and our livelihoods depend on a secure border where legal trade 
and commerce can grow. The entire border region is critical to the 
strength and future of Texas and our Nation, and we need to see these 
communities prosper and economies grow without the threat of violence 
associated with illegal drug and human trafficking.
    The Federal Government needs a smarter, dynamic response to avoid 
funneling this traffic into our rural areas. Texans want action and all 
Americans need action. The Texas legislature, State, and local law 
enforcement have invested considerable resources to support the mission 
of the U.S. Border Patrol and meet the public safety concerns of their 
constituents. These local, State, and Federal law enforcement officers 
are doing the best job they can, but ineffective Federal policies have 
only allowed the problems to fester. Our Border Patrol and local and 
State officers are doing the best job they can, but they are in dire 
need of the strategic support of our Federal Government to take the 
fight to the cartels and aid our neighbors to the south. The broader 
strategy our Government is employing does not appear coordinated, 
effective, or have the full attention of this administration to follow 
through in solving this problem.
    To get that attention and respond to the urgent pleas for 
lifesaving help, I launched a website to document the real stories of 
Texans suffering from our insecure border. ProtectYourTexasBorder.com 
posts videos from those who have bravely come forward--in many cases 
anonymously for fear of retaliation--to share their encounters with 
these dangerous individuals. These are true accounts that document what 
is really happening on our side of the border. The evidence is clear; 
the border is not secure.
    It is imperative the administration help us secure the border. On 
Monday, September 26, I unveiled a detailed strategic assessment of the 
United States' Southern Border between Texas and Mexico that chronicles 
the impact of violent drug cartels and transnational criminal 
organizations. Co-authored by retired General Barry McCaffrey, the 
former Director of the Office of National Drug Control Policy under 
President Bill Clinton and the former Commander of all U.S. troops in 
Central and South America, and retired Major General Robert Scales, the 
former Commandant of the United States Army War College, the assessment 
details the border problem in undeniable, stark terms. It also provides 
a strategic analysis of the danger and threat to our Nation, and 
advocates for expanded resources and attention to secure the border.
    Their assessment, along with many others that have genuinely looked 
at the war raging along our Southern Border, have concluded we cannot 
miss this opportunity to join with the Mexican government to confront 
narco-terrorism, by addressing the strategic needs this region requires 
to end the illegal flow of narcotics, people, guns, and money.
    Targeting these terrorists and securing the border only solves part 
of the problem; you also must address other weaknesses that have led to 
the abuse of our border and laws. While I recognize these are two 
separate issues, it is undeniable that reducing the number of illegal 
entries into the United States by reforming our failed guest labor and 
immigration program would allow our law enforcement to focus resources 
on the remaining reduced illegal border crossings. Any expanded effort 
to secure the border would be benefited by substantially focusing on 
reforming a failed immigration system, which in turn would allow Border 
Patrol and law enforcement resources to be more fully engaged in 
stopping violent drug and human traffickers. All Americans, regardless 
of their background or culture, deserve a legal immigration system that 
meets our workforce needs and diminishes the demand for the coyote 
smugglers and traffickers who are exploiting and endangering lives.
    Allowing a porous border is not only a threat to our citizens and 
Nation's food supply, but also a threat to our homeland security. 
Clearly, such a threat stands in direct contrast to the protections 
authored by our Founding Fathers in the United States Constitution.
    This debate can be summed up with one question: Would America allow 
terrorists based in Canada to make nightly incursions into New York? 
The answer is a resounding ``No!'' We need help and we need it now with 
the immediate deployment of additional boots on the ground.
    Thank you for the opportunity to testify. I look forward to any 
questions you may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. McCaul. Thank you, Commissioner. Thank you for your 
passion on this issue and this report that you generated.
    Next, the Chairman now recognizes General McCaffrey for his 
testimony.

 STATEMENT OF GENERAL BARRY R. MCCAFFREY (RET.), PRESIDENT, BR 
                   MCCAFFREY ASSOCIATES, LLC

    General McCaffrey. Well, thanks, Mr. Chairman and to 
Ranking Member Keating and Members of the committee, for the 
opportunity to come here today and talk about the report, which 
you have already entered in the record. My opening statement, I 
would appeal to you, sir, to enter that into the record, as 
well.
    Let me begin with two, sort of, assertions. One is my 
personal enormous pride in President Calderon and his senior 
officials--Garcia Luna, the head of the Federal police effort, 
the Mexican Army, the Mexican Navy, and particularly the 
Mexican Marine Corps, who are struggling for the rule of law in 
Mexico. Now, I don't think it needs any discussion--43,000 
murdered, the most appalling internal struggle. This is not 
about drugs; this is about the future of Mexico.
    I might add, as well, there is no question in any of our 
minds in this room that the two most important countries on the 
face of the Earth to the United States are Mexico and Canada, 
whether it is importing energy or cross-border commerce or 
cultural affinity. So we have great respect and sympathy for 
what the Mexicans are undergoing.
    I think along with that I would assert that U.S. support 
for a strategy of cooperation in support of Mexico has been 
anemic. It is $1.3 billion over 3 years, 11 helicopters, 
compared to a $10-billion-a-month burn rate in Afghanistan. So 
I would argue that our support to this vital ally has been 
inadequate.
    Now, turning to the study at hand, I was honored to be part 
of Dr. Scales' effort, working for Commissioner Staples, to 
take a look at cartel cross-border activity.
    I also don't think there is any argument in the room that 
the dominant criminal enterprise in the United States, more 
than 260 cities--I was just in Portland, Oregon, talking to 
their police department--is elements of Mexican cartels. They 
are moving hundreds of metric tons of cocaine, heroin, 
methamphetamines, ecstasy, high-THC-content marijuana across 
that border.
    As a general statement, thank God for the resources that 
Congress has provided over the last several years. I have been 
working that border problem and Mexico's internal struggle 
since 1996. I have been in every one of those border cities 
almost every year since then. It is clear that, were it not for 
the FBI--thank God for the FBI and their ability to do 
countercorruption law enforcement operations. If it were not 
for the increase in the Border Patrols, gone from essentially 
4,000 when I started working this issue to 19,000, if it were 
not for the increase in the resources to ICE, we would be in a 
disastrous situation.
    So El Paso, the center of the universe--the mayor is a 
friend of mine--when you look between El Paso and Juarez, 
Juarez being the most dangerous city I know of--I am in and out 
of Kabul and Baghdad, and I am here to assure you it is more 
dangerous in downtown Juarez than it is in either one of those 
cities. But thanks to U.S. law enforcement, the border 
community is doing pretty good. Plus, we put in fencing and we 
allowed the Border Patrol, CBP, to match their assets.
    Now, having said that, you know, as we listen to Texas 
border communities, as we listen to law enforcement officials 
throughout the United States, there is no question that there 
are spillover effects--if it is a word that is more acceptable 
to the debate--all along that frontier.
    I just ask you draw your attention to the Austin American 
Statesman, 9 October, big headline: ``Violent Drug Gangs Use 
Austin as U.S. Base.'' It is impossible for me to believe that 
witnesses like Dr. Vickers and others we talk to along that 
frontier are imagining the violence and intimidation that they 
face on a daily basis.
    So the bottom line, from my perspective, is to support the 
Mexican authorities in a more robust manner, to increase the 
assets to Federal U.S. border security, and to make sure we 
understand that those border sheriffs up and down that frontier 
simply must receive more assistance--technical assistance, 
resources, manpower, et cetera.
    So, again, Mr. Chairman and Ranking Member Keating, thank 
you for the opportunity to appear here this morning.
    [The statement of General McCaffrey follows:]

                            October 14, 2011
                Prepared Statement of Barry R. McCaffrey

    Chairman McCaul, Ranking Member Keating, thank you for the 
opportunity to provide testimony on the situation at the Southern U.S. 
Border. I recently joined MG Bob Scales, USA (Ret.) to complete a 
strategic assessment of the border security situation in Texas (Texas 
Border Security: A Strategic Military Assessment), which comprises two-
thirds of the U.S.-Mexico border. This assessment was conducted on 
behalf of the Texas Department of Agriculture. I request that the 
assessment be introduced into the record of this hearing. Principal 
findings of this assessment include:
  <bullet> Mexican drug trafficking organizations are active in Texas 
        and their tentacles extend throughout the United States.
    <bullet> Mexican criminal organizations are a major producer and 
            supplier to the United States of heroin and 
            methamphetamines.
    <bullet> Mexican cartels supply much of the marijuana consumed in 
            the United States. Mexico is also the vector for more than 
            95% of the cocaine sold across the United States.
    <bullet> Mexican drug trafficking organizations are the predominant 
            organized criminal groups in more than 280 U.S. cities. 
            They have displaced the Colombians and other foreign and 
            domestic criminals as the principle threat to the rule of 
            law in the United States. The National Drug Intelligence 
            Center states the cartels represent the greatest organized 
            crime threat to the United States today.
    <bullet> Mexican criminal organizations procure weapons and 
            ammunition in the United States (as well as from the 
            international arms market) and employ them in the bloody 
            assault on Mexican law enforcement and the Mexican Armed 
            Forces.
    <bullet> $19-$39 billion of drug profits are repatriated each year 
            by these trafficking organizations to Mexico from the 
            United States. Cash has become a blow torch of corruption 
            in both Mexico and the United States.
    <bullet> Individual Mexican Cartel ``soldiers'' are recruited from 
            prison gangs in the U.S. border States to act both in the 
            United States and in Mexico.
    <bullet> Criminal gangs in Texas are essentially ``subcontractors'' 
            to Mexican cartels, transporting drugs into the United 
            States.
    <bullet> Given that Texas straddles two-thirds of the U.S.-Mexico 
            border and has transportation corridors that lead to major 
            drug markets throughout the United States, Mexican cartels 
            are especially active throughout the State.
  <bullet> Despite significant reductions over the past decade in the 
        numbers of illegal crossers of the U.S.-Mexico border, Federal 
        agencies have yet to establish effective operational control of 
        much of the border.
    <bullet> Criminal drug trafficking across our border with Mexico 
            has not diminished.
    <bullet> Mexican drug trafficking organizations are increasingly 
            involved in the smuggling of aliens into the United States 
            and often force border crossers to carry drug loads.
    <bullet> Incidences of drug-related violence and intimidation of 
            residents are becoming more common in Texas' rural counties 
            and communities adjacent to the border.
    <bullet> Residents of communities and counties adjacent to the 
            U.S.-Mexico border live under constant threat of drug 
            traffickers and are on our ``front line'' so to speak. Many 
            believe they are increasingly vulnerable and inadequately 
            protected by U.S. Federal authorities.
    <bullet> The inadequately resourced law enforcement and public 
            safety agencies at the local and county level along the 
            border are frequently overwhelmed by the activities of 
            Mexican cartels. They do not have the manpower to maintain 
            the rule of law or the budgets to deal with the 
            consequences of criminal cross-border activities (e.g. 
            burying the dead, conducting homicide investigations, 
            conducting autopsies).
  <bullet> The State of Texas has taken effective action since 2006 to 
        enhance security along its border with Mexico.
    <bullet> The Texas Legislature created a Border Security Council to 
            provide strategic direction to the Texas Department of 
            Public Safety, the Texas Rangers, Texas Highway Patrol, and 
            other State law enforcement agencies.
    <bullet> Tactical operations have demonstrably affected drug 
            trafficking activities and suppressed levels of violence.
    <bullet> Texas law enforcement has deployed low-cost and relatively 
            low-technology surveillance and information-sharing systems 
            that can be replicated elsewhere along the border.
    <bullet> The tactics and inter-agency cooperation systems developed 
            by Texas law enforcement agencies can be instructive to 
            other border States and, indeed, to Federal border 
            protection agencies.
    <bullet> However, the State of Texas lacks adequate resources to 
            confront the drug threat unilaterally and remains dependent 
            on the Federal Government to secure the border, interdict 
            drug trafficking, and prevent Mexican cartels from 
            operating within the United States.
    The security situation in Texas (and along the entire U.S.-Mexico 
border) is obviously affected by the evolving struggle in Mexico, where 
over 40,000 individuals have been murdered over the past 5 years by 
crime-related violence. Much of this violence is between rival drug 
trafficking organizations. However, the cartels have also targeted the 
Mexican Armed Forces, Federal, State, and local law enforcement 
agencies, government officials, journalists, and civilians and 
committed brutal murders to intimidate the public and convince the 
government not to go after them. This violence is also driving 
increases in crimes such as kidnapping, armed robbery, and extortion.
    Mexico is involved in a desperate struggle for its future. We have 
never had greater cooperation between U.S. and Mexican authorities to 
counter this enormous criminal menace from the seven principle cartels. 
The rule of law throughout the country--not just along the U.S.-Mexico 
border--is at stake. President Calderon and his courageous 
administration have demonstrated their resolve and commitment in 
confronting these crime cartels. While U.S. support of the Mexican 
government has increased over the past decade, it remains in my 
judgment less than adequate. The resources we have expended in 
Afghanistan ($400 billion) are multiple orders of magnitude greater 
than the effort we have committed to Mexico via the Merida Initiative.
    It is not in the U.S. National interest to have the next Mexican 
president and administration conclude that the bloody struggle against 
the cartels is not sustainable and allow these criminal groups the 
freedom of action to smuggle drugs and control large areas of Mexico 
and Central America. The United States must be a more effectively 
resourced partner to the government of Mexico. We must substantially 
increase budget for training, intelligence, aviation, and technology 
required by Mexico--as well as providing a major increase in manpower 
and resources to: Customs and Border Protection, the DEA, and the Coast 
Guard.
    Our steady support over the past 20 years of the Colombian 
government in its efforts against major drug cartels was important to 
their success in dramatically reducing a grave National security 
threat, expanding the rule of law--and strengthening human rights, law 
enforcement agencies, and the judiciary. An appropriately resourced and 
long-term commitment to support Mexico will similarly increase the 
likelihood of a positive outcome in that nation. Such support to Mexico 
is a prerequisite for a more secure U.S.-Mexico border and for the 
safety of our citizens in rural communities along the border.
    In summary, we cannot allow local U.S. Sheriff's Departments and 
State Authorities along our 2,000-mile border with Mexico to bear a 
disproportionate responsibility for defending America from large, 
violent, well-resourced criminal organizations that menace the rule of 
law throughout all 50 States. The dedication and courage of Federal law 
enforcement agencies and their greatly increased manpower and 
technology over the past 15 years have prevented a disaster on our 
frontiers. However, it is clear that these efforts are not adequate.
    In closing, we must also recognize that our economy is 
fundamentally dependent on more than 10 million illegal migrants now in 
the United States. They are essential to U.S. agriculture, 
construction, meat packing, and the service industry. They are 
currently not receiving the protections of minimum wage, OSHA safety 
standards, and in too many cases the ability to keep their children in 
school. They cannot go to the local police if menaced by Mexican 
cartels. We must rationally and fairly both strictly enforce control of 
our borders with robust Federal law enforcement--as well as providing 
legal guest worker status to these millions of hard working honest 
people who are central to our economic well-being.
    Thank you for the opportunity to submit this statement and testify 
at this hearing. My purpose is to strongly urge Congress to resource 
our partnership with Mexico to more effectively protect the American 
people from the growing threat of these lethal and malignant criminal 
organizations.

    Mr. McCaul. Thank you, General. I know you made reference 
to this Austin American-Statesman article, noting how--I think 
it was La Familia--``Violent Drug Gang Uses Austin as U.S. 
Base.'' There were, I think, over 50 arrests in my hometown of 
Austin.
    I would like to, without objection, enter this news article 
in the record.
    [The article follows:]

        Cartel Connection Reveals Why La Familia Targeted Austin
By Jeremy Schwartz, AMERICAN-STATESMAN STAFF
Updated: 9:13 a.m. Monday, Oct. 10, 2011
Published: 8:50 p.m. Saturday, Oct. 8, 2011

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Excerpt]
    The two men were returning to the small, one-story house in 
Northeast Austin from Alabama. Hidden in the back of their SUV was 
$110,000 in carefully wrapped bundles, money authorities said came from 
cocaine sales.
    But responding to an informant's tip, federal drug agents found the 
men in the parking lot of a bar in Baton Rouge, La., where they 
searched the truck. As the officers pulled out the cash, the men grew 
terrified.
    ``I wish you would put me in jail,'' one of them said, according to 
a criminal complaint. ``They are going to kill me over this missing 
money.''
    According to court documents, the money was destined for an Austin 
resident the couriers had reason to fear: Jose Procoro Lorenzo-
Rodriguez, who authorities say is a local leader for Mexico's brutal La 
Familia cartel.
    The raids that followed revealed that La Familia, a quasi-
religious, hyper-violent group born five years ago in the mountains of 
Michoacan, used Austin as a base of operation to funnel large 
quantities of cocaine, marijuana and especially methamphetamine to 
places such as Atlanta and Kansas.
    But in addition to providing a glimpse of the cartel's operations 
in Austin--at least four autonomous cells stretching from Round Rock to 
South Austin--the investigation revealed a crucial clue:
    The men at the top of the Austin organization hailed from the same 
small Mexican town.
    For more than three decades, the remote, desperately poor city of 
Luvianos, along with other neighboring towns in the mountains of 
central Mexico, has sent the majority of its northbound migrants to 
Austin, where they have worked as landscapers, opened restaurants and 
built a thriving community. One corner of Northeast Austin has been 
dubbed ``Little Luvianos'' by residents.
    But Luvianos is also a prize coveted by Mexican cartels. 
Traffickers from the northern border--first the Gulf Cartel and later 
the Zetas--controlled the town until 2009, when La Familia won the 
region in a violent war.
    Officials emphasize that the vast majority of Luvianos immigrants 
are law-abiding residents without cartel ties. But increasingly, 
authorities add, the cartel members who prey on Mexicans in Luvianos 
have begun to find their way to Central Texas.
    ``It's not surprising that (cartel members) are migrating to Austin 
as well,'' said Francisco Cruz Jimenez, a Mexican journalist who 
chronicled the recent history of Luvianos in his 2010 book ``Narco-
Land.'' ``It's very natural that they look for communities where they 
have paisanos because they can go unnoticed.''
    Yet it's a development that local officials have been slow to 
acknowledge. Only last year Travis County joined the long-standing High 
Intensity Drug Trafficking Area program, which coordinates and funds 
joint law enforcement efforts against organized crime groups.
    Other large Texas cities have been members for years.
    As law enforcement agencies work to catch up, the Luvianos 
connection could hold important answers for officials trying to 
understand how and why La Familia set up shop in Austin. A thousand 
miles away, the sometimes bloody, often tragic history of Luvianos has 
become intertwined with Austin's future.

                        ``A PROBLEM IN AUSTIN''

    In 2008, more than 125 cities--including Des Moines, Iowa, and 
Dayton, Ohio--reported the presence of specific Mexican trafficking 
organizations in an annual Justice Department report. Austin was not 
one of the cities. That year, San Antonio, Houston and Dallas all 
reported that cartels dominated local drug distribution networks.
    Since then, Austin officials have learned that as many as four 
cartels operate inside the city. Law enforcement agencies have arrested 
human smugglers connected to the Zetas, targeted local prison gang 
members connected with the Gulf cartel and conducted numerous raids on 
La Familia members. The Drug Enforcement Administration says members of 
the Beltran-Leyva cartel also operate within Austin.
    Local drug agents now say that though Austin has long been home to 
cartels and cartel-affiliated traffickers, better intelligence sharing 
among agencies and increased cartel activity have brought the problem 
to the surface.
    ``We've been a little slow to recognize'' the cartels' local 
growth, said Michael Lauderdale, the head of the city's Public Safety 
Commission. ``We're starting to feel the consequences of that benign 
neglect.''
    The July raids, part of a larger nationwide sweep that resulted in 
more than 1,000 arrests, confirmed the trend.
    ``If they busted four cells, you have a problem in Austin,'' said 
Phil Jordan, a retired federal agent and former director of the 
Department of Justice's El Paso Intelligence Center, which tracks drug 
trafficking networks along the border.
    The cartel presence in Austin has sparked concerns about the 
possibility of increased organized crime violence, already experienced 
in small doses by cities such as Dallas.
    Drug war experts predict that bloody outbreaks of violence in 
Austin are unlikely because it's bad for cartel business.
    Jordan said any future cartel violence in Austin is likely to be 
isolated and targeted against rivals. ``It won't be a shootout at the 
OK Corral,'' he said. ``They try to do it in the quietest way possible. 
They don't want to create a hysteria.''
    Yet Austin already has a history of Luvianos-related drug violence. 
In 1992, a Luvianos man was fatally shot and dumped in the Colorado 
River. Prosecutors charged three men from Luvianos in the killing.
    ``These men came charging into (the dead man's home) with guns 
blazing,'' Travis County Detective Mark Sawa said at the time. ``We 
believe they were looking for some marijuana that was just smuggled 
in.''
    A 2009 Austin murder also bears the marks of a cartel killing. 
Officials say the suspect is from the Luvianos area.

                             ``NARCO TOWN''

    Stroll through the small, bustling main plaza in Luvianos and 
you're likely to hear residents sprinkle their conversations with 
references to nightclubs on Riverside Drive and taquerias on Cameron 
Road. Immigration to Austin began in the 1970s, according to local 
residents, driven by deep poverty and a lack of opportunity in the 
rural, mountainous region. Since those first migrants landed in Austin 
to work in construction and open restaurants, money sent home from 
Austin has helped keep the Luvianos economy afloat, paying for 
quinceaneras, weddings and retirements.
    The municipality of 25,000 is part of a region called the Tierra 
Caliente, or Hot Lands, which straddles the borders of Michoacan, 
Guerrero and the state of Mexico. The location inside an inhospitable 
and hard-to-access region of central Mexico has made it attractive to 
Mexican crime groups. The region has a light police presence: As 
recently as 2010, only 40 officers patrolled the hundreds of tiny 
pueblos in the municipality belonging to Luvianos, according to author 
Cruz.
    And crucial to the cartels, the region around Luvianos is 
crisscrossed with unmapped backroads that lead to the largest port on 
Mexico's Pacific coast, providing access to ships offloading Chinese 
precursor chemicals used in the production of methamphetamine.
    According to Cruz, the region today produces Mexico's highest 
quality marijuana and is home to the nation's most productive 
methamphetamine laboratories. ``It was very natural that Luvianos 
turned into a narco town,'' Cruz said.
    Cruz said the region was initially controlled by cartels from 
northern Mexico, whose leaders built luxurious homes in the 
hardscrabble town and paid for road paving to allow better access for 
their expensive vehicles and the heavy trucks ferrying drug loads.
    Soon after La Familia formed in neighboring Michoacan in 2006, its 
leaders set their sights on Luvianos, which they considered their 
natural zone of influence, according to Cruz. What followed was a 
brutal war between La Familia and the Zetas, which reached its height 
in the summer of 2009, with daily gunbattles and dozens of killings, 
according to local reports. La Familia emerged triumphant and has since 
dominated the region, according to Mexican law enforcement.
    The cartels have terrorized residents, enforcing nighttime curfews 
and beating civilians found outside their homes when convoys transport 
drugs or precursor chemicals.
    ``They controlled Luvianos,'' Cruz said. ``You have an army of poor 
people who have either been immigrating or scratching out an existence 
in the fields. Then came the cartels, who arrived with money, and they 
hooked the local population, using them as transporters, a workforce 
for the labs and assassins.''
    Local Luvianos gangsters have also begun to rise through the ranks. 
According to the Mexican attorney general's office, La Familia's leader 
in Luvianos is a man named Pablo Jaimes, who gained notoriety after 
gunning down three police officers in the nearby city of Tejupilco in 
2008. Mexican authorities are hunting for the man.
    At the beginning of September, seven La Familia gunman were killed 
in a firefight with police in Luvianos. Last week, Mexican police 
arrested one of the original founders of La Familia just outside the 
town, which police described as a haven for cartel leaders as they 
fight a splinter group, the Knights Templar.

                      A STRONGHOLD FOR LA FAMILIA

    After making the trip north, most immigrants from Luvianos and its 
surrounding towns have landed in a small area of Northeast Austin near 
Reagan High School, filling a string of moderately priced apartment 
complexes.
    Several restaurants and businesses have been started by Luvianos 
natives, and three days a week residents can board a bus at a record 
store on Cameron Road for a direct trip to Tejupilco, a regional 
capital next to Luvianos. In the middle of the neighborhood, residents 
walk past an idyllic mural of Luvianos, complete with the quaint gazebo 
that dominates its central square and the emerald Nanchititlan 
mountains that ring the city.
    For longtime Austin residents from Luvianos, the appearance of La 
Familia in the city is a painful reminder. ``Many people come to live 
here because they have fear'' of La Familia, said one Luvianos-born 
business owner who has been here since 1985. The man did not want his 
name used because he feared retaliation against his family in Mexico. 
``Here, people aren't so scared because there have not been threats. 
And if the government hears about (cartel members) they grab them up.''
    Greg Thrash, who was named the resident agent in charge of the 
Austin DEA office three years ago, said decades of immigration from 
Luvianos to Austin have made it easier for La Familia to set up shop 
locally. ``Austin is a stronghold for La Familia; we know that,'' said 
Thrash, who led the effort to bring Austin into the federal drug 
trafficking program. ``I believe it's generational and familial. They 
will deal with those they feel comfortable with. That's why you see the 
presence in certain parts (of the United States), because of family.''
    Such ties were evident during the July Austin bust, which netted 
about three dozen suspects who face a range of charges in federal 
court, including conspiracy to distribute controlled substances. Among 
them were three men in Alabama who also were from the Luvianos region 
and received drug shipments from Austin, according to drug task force 
agents there. In 2009, local agents arrested four people with ties to 
the cartel as part of another nationwide bust.
    According to the DEA, La Familia has operated at least four cells 
in Austin, each independent and unaware of what orders the others were 
receiving from cartel bosses in Luvianos. ``It was very 
compartmentalized,'' Thrash said. The operation was also lucrative, 
according to Thrash, who said millions of dollars were moved through 
Austin stash houses. According to a sprawling, 44-suspect indictment, 
members of the group made several wire transfers to Luvianos.
    A DEA chart outlining the structure of the organization identified 
four men arrested in the recent roundups as cell leaders: Lorenzo-
Rodriguez, Jose Luis Jaimes Jr., Alexandro Benitez-Osorio and Jesus 
Sanchez-Loza. All four have pleaded not guilty to charges including 
conspiracy to launder money and to distribute controlled substances. 
They are being held without bail at area jails.
    Lawyers for the four either refused to talk on the record or did 
not respond to requests for comment. One lawyer said the charges 
against the group were overblown.
    The group smuggled drugs in both traditional and innovative ways, 
Thrash said. In addition to using private vehicles to cross the border 
in Laredo, he said, the group used FedEx to ship methamphetamine to 
Austin--on at least one occasion inside a children's book.
    Agents seized 30 kilograms of liquid methamphetamine in mini 
Heineken kegs, a troubling trend for drug agents because liquid drugs 
can be more difficult to detect than powders or pills.
    The ringleaders of the four Austin cells drove inconspicuous 
vehicles and apparently spent little money locally. ``All the money 
goes back to Mexico,'' Thrash said. Several members of the group were 
family men, living with their young children and wives. And Jaimes 
included his wife in drug trafficking trips, according to pretrial 
testimony.
    In Colony Park, neighbors said they often saw numerous cars parked 
in front of the house on Bryonwood Drive, where one of those named as a 
cell leader, Lorenzo-Rodriguez, lived.
    ``They didn't talk to nobody,'' said a 55-year-old neighbor who 
lives a block from the 1,100-square-foot house, which has an appraised 
value of about $69,000 and is owned by a California man, according to 
county records. The man, after learning his neighbor was suspected of 
being a cartel member, said he didn't want his name used for fear of 
retaliation. ``It surprised me when they got raided.''
    According to court documents, the threat of violence hung over the 
organization.
    After the May Baton Rouge bust in which agents found the $110,000 
destined for Austin, police let the men continue to Austin with a 
receipt for the forfeited money.
    One of the men, Mark Rew, went to Lorenzo-Rodriguez's home and 
presented him with the paperwork. According to court documents, Rew was 
held captive throughout the day, both at the Colony Park home and at 
the nearby apartment of one of Lorenzo-Rodriguez's associates.
    As dusk began to fall, Rew was brought back to the Colony Park 
home, where agents believed Lorenzo-Rodriguez was threatening him with 
a gun, according to court documents. Agents burst into the house, where 
they arrested the men and found cocaine, $8,000 in cash and a 9 mm 
pistol. Rew told agents he thought he was about to be killed over the 
seized money.

                         STREET GANGS A DANGER

    Local officials and experts say large-scale cartel violence in 
Austin is unlikely. ``It's a concern, but you have to go back to what 
they are using folks here for,'' Thrash said. ``It's to move cocaine, 
methamphetamine to end cities.'' Cartels operating in the U.S. 
generally have avoided the kind of spectacular violence that marks 
their operations in Mexico. ``They don't want to stir up U.S. law 
enforcement if they don't have to,'' said Ricardo Ainslie, a professor 
of educational psychology at the University of Texas who has studied 
drug violence along the border.
    Sylvia Longmire, an independent drug war consultant for law 
enforcement agencies and author of ``Cartel: The Coming Invasion of 
Mexico's Drug Wars,'' said there is an important reason for the 
disparities in violence in the U.S. and Mexico: Much of the violence in 
Mexico is driven by the brutal competition for a limited number of 
highly coveted border entry points. Cartels, she added, will fight 
ceaselessly for border cities such as Juarez and Nuevo Laredo because 
once they control them, they can guarantee the flow of merchandise.
    ``Once they are here, the hard part's over and it's a complete 
shift in strategy and in the operators,'' Longmire said. ``Cartels are 
not in the business of fighting over a corner. They let the street 
gangs do that.''
    That's what worries Lauderdale, of the city's Public Safety 
Commission. ``What I think is the major threat in Austin is that they 
would use street gangs in the same way they do with the Barrio Azteca 
gang in El Paso and Juarez,'' he said, referring to a violent street 
gang responsible for many of the killings in Juarez in recent years.
    Indeed, Austin police say they've observed a 14 percent jump in 
youth gang activity in the past year. ``I think we're just on the 
starting edge of this kind of stuff,'' Lauderdale said.
    Cartel violence is not unknown in Texas, especially in Dallas, 
where a series of shootouts have rattled local officials. In May, a 
Michoacan man was found guilty of the machine gun slaying of a Familia 
member, who was killed while he rode in a black Hummer in a Dallas 
neighborhood.
    Austin also might have been the scene of a cartel-related execution 
two years ago. Police say that in December 2009, a man from a small 
town near Luvianos walked up to a taco trailer in South Austin and shot 
a 43-year-old worker, who was preparing food alongside his wife, after 
ordering some food.
    A fingerprint the man left on a bottle of orange soda led police to 
Jose Rodriguez, who was later arrested in Illinois. Rodriguez, who is 
awaiting trial in Travis County on murder charges, used several 
aliases, according to police, including Pablo Jaimes, the name of La 
Familia's Luvianos leader and the hitman wanted for killing three 
police officers in 2008. Though Rodriguez was merely borrowing the 
name, investigators are looking into whether one of the arrested cell 
leaders in Austin is related to Jaimes.
    It is unclear what effect the recent arrests have had on La 
Familia's organization in Austin.
    ``If you keep whacking at the organizations, you will weaken, 
dilute them,'' Thrash said.
    But driving cartels out of Austin entirely is another question. The 
arrests ``have had little or no impact on those organizations and their 
ability to bring drugs across the border,'' Longmire said. ``These guys 
are so replaceable.''

    Mr. Cuellar. Mr. Chairman, could I ask you a question?
    Mr. McCaul. Okay, Henry.
    Mr. Cuellar. Austin, Texas, is that on the border? Because 
I think the focus is on the border.
    Mr. McCaul. I think the focus--we are focusing on the 
border States. That is what we need to be focused on.
    Mr. Cuellar. Okay.
    Mr. McCaul. We can argue about El Paso being the safest 
city or not. I would argue that the UCR indicates that it is 
one of the safer cities. That is not up for debate here today. 
What we are talking about, I think as the general mentioned, 
are the spillover effects.
    Mr. Cuellar. Right. And----
    Mr. McCaul. And it is noted that there are a thousand 
cities that are inhabited by the drug cartels, according to the 
FBI's own report.
    Mr. Cuellar. And I just want to----
    Mr. McCaul. And that is not just--that is not Laredo. That 
is all across the Nation.
    Mr. Cuellar. Okay. I just want to--since you are 
introducing something for the record, I am not going to object 
to that, but I just want to put for the record that Austin is 
not the border. Because I think the focus from everybody is the 
border. I have no objection to the introduction, but I just 
want for the record, Austin is 233 miles, roughly 235 miles 
away from the border, just for the record.
    Mr. McCaul. It is not that far from the border. But I would 
say, the focus here is not just the border towns. I think the 
focus of this hearing are the border States and, frankly, the 
infiltration in the entire Nation and the threat that the drug 
cartels pose to the entire Nation.
    Mr. Cuellar. My good friend, I don't want to get into it, 
but the basis of this report is one sentence where they said, 
``Doing business in a border county is like doing business in a 
war zone.'' So the focus of this report is based on border 
counties. I agree that we need to look at everything, but the 
basis of this report is one sentence. The conclusion is, 
``Doing business on a border county''--that is specifically 
their language--``is like doing business in a war zone.''
    For the record, Austin, Texas, since you live there--and I 
will be at your house Monday for lunch--is not on the border. 
That is all I want to--just for the record.
    Mr. McCaul. Your point is well taken. I view it as a 
security threat to all Texans and all cities.
    With that, I recognize General Scales for his testimony.

STATEMENT OF MAJOR GENERAL ROBERT H. SCALES (RET.), PRESIDENT, 
                           COLGEN, LP

    General Scales. Thank you, Mr. Chairman and Ranking Member 
Keating. My testimony will be principally focused on the study 
that we wrote.
    Five years ago, the Homeland Security Committee authored 
the report, ``A Line in the Sand: Confronting the Threat at the 
Southwest Border.'' In that report you predicted a war on the 
Southern Border. You anticipated the prospect of spillover 
violence and the critical importance of increasing the 
resources of our Border Patrol and border sheriffs. We, in our 
report, essentially support the core conclusion that America's 
borders are our Nation's last line of defense in the war on 
terror and they have to be secured.
    Your 2006 report underscored the evidence that terrorists 
want to exploit our porous borders to gain entry into the 
United States, and we agree with that. The White House and the 
DHS agree with that. Indeed, the Secretary said that, ``The 
border-security measures we have taken constitute the most 
innovative and effective approach our country has ever 
deployed.'' Our report suggests that is simply not true.
    I direct your attention to the Department of Justice's 
recent report, the ``National Drug Threat Assessment for 
2011.'' In that report they state that the Mexican drug-
trafficking organizations are operating in every region of the 
country. They have increased their drug control over U.S. 
street and prison gangs to distribute drugs. In many areas, 
these gangs are using their alliances with Mexican cartels to 
facilitate an expansion of their mid-level and retail drug 
distribution operations into more rural and suburban areas. In 
2009, mid-level distribution in the United States was dominated 
by over 900,000 criminally active gang members representing 
approximately 20,000 street gangs in more than 2,500 cities.
    DHS labels as a myth that the border is out of control. The 
Government Accounting Office concludes differently. They state 
in several reports that both south-to-north and north-to-south 
trafficking of drugs and humans and cash is virtually unimpeded 
in large stretches of the border.
    Cartels are increasingly financing more drug consumption 
and other criminal activities throughout the Nation and 
amassing a vast amount of cash from criminal activities in the 
United States. The Federal Government knows this well. Criminal 
drug trafficking across our border with Mexico is not 
diminished, as evidenced by the routine seizures of multi-ton 
loads of illegal drugs in the United States and Mexico.
    We are convinced that the Government is doing a very poor 
job of stopping convicted foreign criminals from entering the 
country and removing foreign criminals who remain in the 
country after multiple convictions. Our evidence conclusively 
proves that the Government has failed to protect Americans and 
their communities from foreign criminals, particularly in the 
border areas.
    In 2010, ICE removed over 195,000 convicted criminal 
aliens, and the majority of these aliens were arrested by State 
and local law enforcement agencies. Our report concludes that a 
million or more criminal aliens responsible for committing 
millions of felony crimes continue to pass back and forth 
through Texas.
    Cartels are driven not by religion or ideology but by the 
motivation of huge and growing profits from drug production and 
shipment, human smuggling, cash and weapons trafficking. They 
have expanded criminal enterprises in Mexico and the United 
States and also internationally.
    We state emphatically that most of the evidence presented 
in our report and documented in an extensive bibliography is 
derived not by us but from Congressional testimony and Federal 
documents. Our role was to add military experience and 
perspective to data that already exists.
    The findings and conclusions in our report are not secrets. 
Most of the data is all in the public records and accessible by 
anyone with an internet connection. Our report provides close 
to 200 web links in that regard.
    In our opinion, the three real issues documented in the 
report are as follows:
    No. 1, the actual situation on the Southwestern Border is 
well-known but publicly denied. This is not about murders in 
large urban areas; it is about the flow of drugs driven by 
narco-terrorism.
    No. 2, much of this crime is channeled through the porous 
Texas border, with an impact on every State in the Nation.
    No. 3, hundreds of thousands of Mexican criminal aliens are 
deported annually, only to return as troops for the cartels, 
better equipped to engage in profitable criminal enterprises 
and activities through the United States.
    Thank you.
    [The statement of General Scales follows:]

                 Prepared Statement of Robert H. Scales
                            October 14, 2011

    Chairman McCaul, Ranking Member Keating, thank you for the 
opportunity to provide testimony on the situation at the Southern U.S. 
Border. I recently joined General Barry McCaffrey Bob USA (Ret.) to 
complete a strategic assessment of the border security situation in 
Texas (Texas Border Security: A Strategic Military Assessment). This 
assessment was conducted on behalf of the Texas Department of 
Agriculture.
    Five years ago, the Homeland Security Subcommittee authored the 
report A Line in the Sand: Confronting the Threat at the Southwest 
Border, exposing the rise of the Mexican drug cartels. Your report was 
prescient in a number of respects. At the time, no one could have 
predicted the enormity of the bloodshed to come in Mexico. But you did 
predict correctly that this Nation has a war on its Southern Border. 
Your committee's report stated that Cartels are controlling the flow of 
illegal drugs into the United States, and weapons and cash into Mexico, 
killing anyone that gets in their way. You anticipated the prospect of 
``spillover violence'' and the critical importance of increasing the 
resources of our Border Patrol and Border Sheriffs.
    Most important, both your Homeland Security Subcommittee's report 
and our recent report, Texas Border Security: A Strategic Military 
Assessment share essentially the same core conclusion: America's 
borders are also our Nation's last line of defense in the War on Terror 
and they must be secured. Your 2006 report underscored the evidence 
that terrorists want to exploit our porous borders to gain entry into 
the United States. We are in complete agreement that America must make 
securing our borders the top priority.
    The White House and the Department of Homeland Security agree with 
this priority. As recently as Oct. 5, 2011, the Secretary of Homeland 
Security gave a speech reiterating that the laws of the United States 
pertaining to legal and illegal immigration have to be enforced in the 
``smartest'' and ``most efficient way possible''. Indeed, the Secretary 
said that ``the border security measures we have taken constitute the 
most innovative and effective approach our country has ever deployed.''
    Unfortunately, however, as our report documents, nothing could be 
further from the truth. There is no comprehensive plan in place to 
secure the Southwest Border. In fact the National Southwest Border 
Counternarcotics Strategy 2011 is not a strategy but rather a to-do 
list focused on what the U.S. Government will achieve when resources 
are available. The list includes preventing trafficking of illicit 
drugs across the border with Mexico, as well as stopping the illegal 
outbound movement of weapons and bulk currency from the United States.
    As you know, Federal resources for border security are insufficient 
for the task and are not likely to grow substantially in the 
foreseeable future. As our report documents, however, the groundwork 
has been set for a coordinated Federal/State/local action to secure 
Texas border with a coalition of State and local law enforcement 
agencies. Even with these limited resources our front line local and 
State law enforcement and Border Patrol and Immigration Customs 
Enforcement Agents are doing a tremendous job. But a great deal more 
needs to be done on both sides of the border.
    Our report commends Mexican President Felipe Calderon and his 
courageous campaign to break the power of criminal organizations 
operating in his country. We acknowledge that through the Merida 
Initiative and other programs, the United States has been supporting 
Mexico's efforts in a wide range of law enforcement and judicial areas. 
The Merida Initiative, however, has been significantly underfunded and 
has not yet become part of a shared border security strategy.
    As you have asserted for years, Congress needs to take action on 
immigration reform. Our report, however, does not address the issue. 
However we do take issue with Department of Homeland Security's 
repeated reference to news media reports (USA Today, Washington Post, 
Wall Street Journal, and others) that the U.S. border with Mexico is 
safer than ever before. It is not.
    In this regard, we encourage members of this subcommittee to obtain 
all of the data from the U.S. Department of Justice's National Drug 
Intelligence Center's National Drug Threat Assessment for 2011, 
specifically data on Transnational Criminal Organizations (TCOs) 
operating in more than 1,000 of the Nation's cities and communities. 
The 2010 edition of this report states that Mexican Drug Trafficking 
Organizations (DTOs) were the only DTOs operating in every region of 
the country. Mexican DTOs increased their cooperation with U.S.-based 
street and prison gangs to distribute drugs. In many areas, these gangs 
were using their alliances with Mexican DTOs to facilitate an expansion 
of their mid-level and retail drug distribution operations into more 
rural and suburban areas.'' In 2009, mid-level and retail drug 
distribution in the United States was dominated by more than 900,000 
criminally active gang members representing approximately 20,000 street 
gangs in more than 2,500 cities.
    The Department of Homeland Security boasts of ``dramatic declines 
in illegal immigration'' and ``dramatic increases in seizures'' over 
the past few years. Declines in illegal immigration in large part are 
attributable to problems in the U.S. economy. Immigration has declined 
because fewer jobs are available to migrant workers. Reductions in 
migrant labor are illustrated by a huge drop in remittances home to 
Mexico in the past 2 years.
    DHS labels as a myth that the border is ``out of control.'' The 
Government Accounting Office concludes differently. They state in 
several reports that both south-to-north and north-to-south trafficking 
of drugs, humans, and cash is virtually unimpeded in large stretches of 
the border. For example, the GAO reports that the Customs and Border 
Protection (CBP) agency over the last 2 years (Mar 2009-Feb 2011) has 
seized about $65 million at land ports of entry along the Southwest 
Border and in illicit bulk cash smuggled out of the United States. This 
total is less than 1 percent of the estimated $18-$39 billion in drug-
trafficking proceeds ferreted across the border.
    Cartels and TCOs are increasingly financing more drug consumption 
and other criminal activities throughout the Nation and amassing vast 
amounts of cash from criminal activities in the United States. The 
Department of Justice and its Drug Enforcement Agency and the 
Department of Homeland Security and its CBP and Immigrations and 
Customs Enforcement (ICE) units know this well. Criminal drug 
trafficking across our border with Mexico has not diminished as 
evidenced by the routine seizure of multi-ton loads of illegal drugs in 
the United States and Mexico.
    Our report says little about the more than 10 million undocumented 
immigrants in the United States. The report does say, and documents, 
that the U.S. Federal Government is doing a very poor job of stopping 
convicted foreign criminals from entering the country and removing 
foreign criminals who remain in the country after multiple convictions, 
imprisonments, and deportations.
    DHS points to its year-end removal numbers as a success story. The 
flip side of this story is the failure to protect Americans and their 
communities from foreign criminals and their transnational criminal 
organizations inside the border counties of Texas and other States. In 
2010, ICE removed over 195,000 convicted illegal criminal aliens. The 
majority of these alien criminals were arrested by State and local law 
enforcement agencies. Recently, ICE officials acknowledged, however, 
that despite these arrests, there were still an estimated 1 million 
convicted illegal criminal aliens in the United States. These criminal 
aliens at large probably have committed 3-4 million felony crimes 
including sexual exploitation of hundreds of thousands of children.
    In Texas since 2008, over 86,000 criminal aliens were booked into 
Texas jails with criminal histories accounting for over 316,000 charges 
including:
  <bullet> 319 murders;
  <bullet> 1,598 robberies;
  <bullet> 44,491 sexual assaults;
  <bullet> 23,310 indecency with a child;
  <bullet> 12,191 assault;
  <bullet> 18,823 burglaries;
  <bullet> 12,191 resisting arrest;
  <bullet> 11,137 stolen vehicles recovered from Mexico.
    In other words, hundreds of thousands of illegal alien criminals 
are pursuing lucrative crime careers in the United States, and sending 
back tens of billions to Mexican crime lords to finance future crimes. 
In Texas and elsewhere tracking down these illegal criminal aliens and 
making arrests falls overwhelmingly to State and local law enforcement. 
State agencies resent the credit taken by DHS and ICE for their hard-
won achievements.
    Our report concludes that a million or more criminal aliens 
responsible for committing millions of felony crimes continue to pass 
back and forth through Texas. These criminal fugitives collectively are 
a threat to National security as well as public safety. It is difficult 
to agree with Secretary Napolitano's statement last week that ``we 
established, as top priority, the identification and removal of public 
safety and National security threats'' when more than a million 
convicted criminal aliens are roaming the streets of America. Their 
presence justifies our conclusion that our borders are not in fact 
secure.
    The Federal Government is also silent on the fact that the States 
have to pick up the tab for the hundreds of millions it costs to house, 
feed, and provide medical care to illegal criminal aliens. These costs 
do not include the expense of investigating and prosecuting cartel and 
gang crimes. The Federal Government in fact reimburses the States only 
pennies on the dollar for incarceration expenses.
    Cartels are driven not by religion or ideology but by the 
motivation of huge and growing profits from drug production and 
shipment, human smuggling, cash and weapons trafficking, and expanded 
criminal enterprises in Mexico, the United States, and internationally. 
Mexico recently established the world's largest collection of 
industrial-size meth labs, that import vast amounts of precursor 
chemicals from Southeast Asia, and ship to the world's largest market 
for illegal drugs is just over the border as well as other 
international markets.
    Some elected officials representing communities along the Texas-
Mexico border assert that our report ``makes outrageous claims'' not 
supported by the facts. They even suggest that the authors are 
``manipulating crime statistics to mischaracterize the border as out-
of-control''.
    These elected officials have gone so far as to accuse the report's 
authors of producing ``propaganda,'' trying to ``discredit the 
President,'' being politically motivated, promoting Governor Perry's 
political agenda, and trying to distract voters from the ``real 
issues.''
    Our main purpose in writing the report was to broaden and deepen 
the altogether too narrow and shallow perspective on ``border 
security'' in the National policy debate. We state emphatically that 
most of the evidence presented in our report, and documented in an 
extensive bibliography, is derived from existing Congressional 
testimony and Federal documents. Our role was to add military 
experience and perspectives to data that already exists. The findings 
and conclusions in our report are not secrets. Most of the data is all 
in public records, accessible by anyone with an internet connection. 
Our report provides close to 200 web links. The public can just click 
and read.
    In our opinion the three ``real issues'' documented in the report 
have much to do with the consequences of an insecure border to the 
Nation, not to the character of the authors:
    1. The actual situation on the Southwestern Border is well-known 
        but publicly denied by the Department of Justice, DHS, and 
        other National law enforcement agencies. In fact they have 
        gathered and even published a vast amount of evidence that 
        Mexican cartels and transnational criminal organizations (TCOs) 
        are expanding a network of drug, human trafficking, and other 
        felony crimes throughout Texas and across more than 1,000 U.S. 
        cities.
    2. Much of this TCO crime is channeled through the porous Texas 
        border with an impact on every State in the Nation. These 
        crimes are largely managed by hardened illegal criminal aliens 
        who are alumni from the Nation's Federal and State prison 
        systems with their schooling paid for by the taxpayer.
    3. Hundreds of thousands of these Mexican criminal aliens are 
        deported annually only to return as troops for TCOs better 
        equipped to engage in profitable criminal enterprises and 
        activities throughout the United States.
    Our report concludes that Washington is responsible for securing 
the border. Texas and the other border States are committed to support 
the Federal effort. This collective mission cannot be accomplished if 
the Federal Government refuses to hold up its end of the deal by 
inadequate funding and a continued denial and abdication of their 
responsibilities.
    Thank you for the opportunity to come before your committee to 
testify and submit this statement for the record.

    Mr. McCaul. Thank you, General.
    The Chairman now recognizes Chief Deputy Aguilar for her 
testimony.

   STATEMENT OF SYLVIA AGUILAR, CHIEF DEPUTY, EL PASO COUNTY 
                 SHERIFF'S OFFICE HEADQUARTERS

    Ms. Aguilar. Thank you. Chairman McCaul, Ranking Member 
Keating, Members of the subcommittee, it is a privilege and an 
honor to appear before you today.
    For close to 30 years, I have served in law enforcement. 
For 25 years, I worked with the police department, being 
promoted through the ranks from detective to deputy chief. 
Since 2009, I have become the chief deputy for the El Paso 
County Sheriff's Office.
    The city of El Paso is in far-west Texas and has a 
population of approximately 650,000. It is the sixth-largest 
city in Texas and the nineteenth-largest city in the United 
States. El Paso County covers an area of more than 1,000 square 
miles and has a total population of approximately 800,000. El 
Paso sits across the border from Ciudad Juarez, Chihuahua, 
Mexico. The two cities form a combined international 
metropolitan area of 2.3 million.
    El Paso is a great and thriving community. It is home to 
the University of Texas at El Paso and Texas Tech University 
Health Sciences Center. At El Paso, as well, we have Fort 
Bliss, one of the largest military complexes in the United 
States Army.
    In 2010, El Paso was awarded the All-America City Award. 
This prestigious award is the oldest community recognition 
program in the Nation. The Brookings Institute Metro Monitor 
has ranked El Paso in the top 20 performing metropolitan areas 
for over a year. An independent housing market forecaster, 
HousingPredictor.com, forecasts El Paso to lead the Nation in 
home price increases for the year.
    As I am sure the Members of this committee are well aware, 
our neighbor Juarez has faced an increase of drug-related 
violence for the past several years. Since 2008, there have 
been nearly 8,900 homicides. The violence stems from two 
cartels that are fighting for control of a lucrative drug 
corridor and rampant street crime.
    El Paso, on the other hand, is a city of law-abiding 
citizens who work hard every day to support their families and 
make their community a better place to live, work, and play. 
Citizens trust and respect our law enforcement agencies--local, 
State, and Federal--which all work together to keep our 
community safe.
    El Paso is so safe that it was recognized as the safest 
large city with a population of 500,000 by the CQ Press, which 
produces the annual Safest City Award. Prior to this 
recognition, El Paso has been named either the second- or the 
third-safest city for the last 12 years, even in light of the 
situation in Juarez.
    The McCaffrey-Scales report states that living and 
conducting business in the Texas border county is tantamount to 
living in a war zone in which civil authorities, law 
enforcement agencies, as well as citizens, are under attack 
under the clock. This is an extreme exaggeration.
    Living and conduct business in El Paso is harmonious and 
thriving. El Paso, unlike other communities in our country, was 
not hit as hard by the economic woes. We attribute that to our 
military base, Fort Bliss, and the individuals that operate and 
open legitimate businesses and keep our economy flourishing.
    The report also states that, ``Texas is a tactical combat 
zone and front line in this conflict.'' But we are not a combat 
zone. The combat zone and the front lines are in Mexico. El 
Paso County is not a war zone. It is one of the safest 
communities and the best-performing metropolitan area in the 
country. I urge each of you to visit and see for yourself what 
a great city and place El Paso is.
    Finally, although we don't get involved in port operations, 
I know drugs are coming through the northbound lanes and guns 
and money are being sent south to Mexico through our ports. We 
see the backups on both sides of the border with traffic 
waiting to go through--traffic and pedestrians. We need 
resources to upgrade the infrastructure of these ports and 
increase the number of Customs and Border Patrol officers so we 
can ensure that the drugs, guns, and money that fuel the cartel 
war are not getting through the ports and that the legitimate 
trade is.
    Again, thank you for inviting me to testify today.
    [The statement of Ms. Aguilar follows:]

                  Prepared Statement of Sylvia Aguilar
                            October 14, 2011

    Chairman McCaul, Ranking Member Keating, Members of the 
subcommittee, it is a privilege and an honor to appear before you 
today.
    For close to 30 years, I have served in law enforcement in El Paso, 
TX. For 25 years, I worked with the El Paso Police Department being 
promoted through the ranks from Detective to Deputy Chief. Since 2009, 
I have been the Chief Deputy of the El Paso County Sheriff's office.
    The City of El Paso, in far west Texas, has a population of 
approximately 650,000. It is the sixth-largest city in Texas and the 
19th-largest city in the United States. El Paso County covers an area 
of more than 1,000 square miles and has a total population of 
approximately 800,000. El Paso sits across the border from Cuidad 
Juarez, Chihuahua, Mexico. The two cities form a combined international 
metropolitan area of 2.3 million.
    El Paso is a great and thriving community. It is home to the 
University of Texas at El Paso and the Texas Tech University Health 
Services Center at El Paso as well as Fort Bliss, one of the largest 
military complexes of the United States Army.
    In 2010 El Paso was awarded All-America City. This prestigious 
award is the oldest community recognition program in the Nation. The 
Brookings Institute's Metro Monitor has ranked El Paso in the top 20 
performing metropolitan areas for over a year, and an independent 
housing market forecaster, Housingpredictor.com, forecasts El Paso to 
lead the Nation in home price increases for the year.
    As I am sure the Members of this committee are well aware, our 
neighbor Juarez has faced an increase of drug-related violence for the 
past several years. Since 2008, there have been nearly 8,900 homicides. 
The violence stems from two drug cartels are fighting for control of a 
lucrative drug corridor and rampant street crime.
    El Paso, on the other hand, is a city of law-abiding citizens who 
work hard every day to support their families and make their community 
a better place to live, work, and play. Citizens trust and respect our 
law enforcement agencies--local, State, and Federal--which work 
together to keep our community safe. El Paso is so safe that is has 
been recognized as the safest large city (over 500,000 population) by 
CQ Press which produces the Annual Safest City Award. Prior to this 
recognition, El Paso has been named either the second- or third-safest 
large city for the last 12 years, even in light of the situation in 
Juarez.
    The McCaffrey/Scales report states that ``living and conducting 
business in a Texas border county is tantamount to living in a war zone 
in which civil authorities, law enforcement agencies, as well as 
citizens are under attack around the clock.'' This is an extreme 
exaggeration.
    Living and conducting business in El Paso is harmonious and 
thriving. El Paso, unlike so many other communities in our country, was 
not hit as hard by the economic woes. We attribute that to our military 
base (Ft. Bliss) and the individuals that operate and open legitimate 
businesses and keep our economy flourishing.
    The report also claims that ``Texas is the tactical close combat 
zone and front line in this conflict,'' but we are not a combat zone. 
The combat zone and the front line are in Mexico. El Paso County is not 
a war zone; it is one of the safest communities and best-performing 
metropolitan areas of the country. I urge each of you to visit and see 
for yourself what a great place El Paso is.
    Finally, although we don't get involved in port operations, I know 
drugs are coming through the north-bound lanes and guns and money are 
being sent south to Mexico through our ports. And we see the backups on 
both sides of the border with traffic waiting to go through. We need 
resources to upgrade the infrastructure of these ports and increase the 
numbers of Customs and Border Patrol officers, so we can ensure that 
the drugs, guns, and money that fuel the cartel war are not getting 
through the ports and that the legitimate trade is.
    Again thank you for inviting me to testify today.

    Mr. McCaul. Thank you, Ms. Aguilar.
    The Chairman now recognizes Dr. Vickers for his testimony.

  STATEMENT OF MICHAEL VICKERS, RANCHER AND VETERINARIAN, LAS 
                   PALMAS VETERINARY HOSPITAL

    Dr. Vickers. Thank you, Chairman McCaul, Ranking Member 
Keating, and Members of the committee, for inviting me here 
today.
    I am Dr. Mike Vickers, a rancher and veterinarian from the 
city of Falfurrias in Brooks County, Texas. Brooks County 
contains a Border Patrol checkpoint that is approximately 65 
miles from the Mexican border, Reynosa, Mexico. I have come 
here today to testify on the violence, crime, and lawlessness 
that is overwhelming Brooks County and its surrounding 
counties.
    Most counties in Texas that have Border Patrol checkpoints 
are rural counties with small sheriff's departments. Human and 
drug smuggling by gangs and organized crime has overwhelmed our 
sheriff's department. Brooks County Sheriff's Department has 6 
deputies to patrol 943 square miles of ranch country. Many 
ranchers are left to fend for themselves. Ranchers are being 
threatened if they call Border Patrol or law enforcement to 
report smuggling activities on their ranch.
    I would be glad to expand on that during the questioning.
    Some have left their ranches and have moved to the cities 
of San Antonio, McAllen, and Corpus Christi. There are hundreds 
of smuggling routes throughout Brooks and its surrounding 
counties that are used by criminals to skirt the Border Patrol 
checkpoints.
    This year, our sheriff's department busted a large drug 
ring affiliated with the Zeta Mexican drug cartel. For over 7 
years, they had shipped over 200 pounds of narcotics a week 
through our ranches. An unsealed indictment revealed that two 
Zetas had come to Falfurrias and were shown where our sheriff's 
deputies live so that they could come back, kidnap them, and 
find out who the informant was. This is still an on-going 
concern.
    Property damage is staggering. Cut fences, mountains of 
trash, destroyed water sources, vandalized homes, stolen 
vehicles are everyday occurrences. Large range fires have also 
been set by smugglers. A recent fire killed at least three 
illegal travelers and required many more to be airlifted to 
safety.
    This is a picture of a ranch fire this year started by a 
vehicle with Mexican plates that left the road fleeing the 
Border Patrol and the DPS, Texas Department of Public Safety, 
that carried 21 illegal immigrants and was clocked at 112 miles 
per hour by the DPS. Border Patrol was able to save four of the 
trapped passengers moments before the truck exploded and 
started the ranch on fire. The truck passengers were 
undocumented illegal immigrants from India.
    Most unsettling are the bodies showing up on our ranches in 
Brooks County. Fifty-one illegal alien deaths have occurred so 
far this year, with another 31 reported still missing, and 
nearly 500 deaths since October 2004. Some are murdered, but at 
least all are criminal homicides.
    One day, when my wife came home, she noticed the dogs 
playing with a round object in the yard. It was a woman's 
skull. Her body was found about 150 yards from our backdoor. 
She had a broken tibia. She didn't walk out there with a broken 
leg; we suspect rape and murder. Other dead women were found on 
my south fence and my neighbor's ranch during that same period.
    Dealing with the dead bodies has exhausted our county 
resources. I have aerial photos of our sheriff's department's 
compound, containing hundreds of vehicles confiscated from drug 
and human smugglers.
    Seven years ago, myself and others started a group called 
the Texas Border Volunteers to help law enforcement control the 
smuggling through private property. We are concerned about the 
thousands of people coming into our State and Nation without 
knowing who they are or where they come from.
    We have monthly operations and report criminal activity to 
law enforcement and U.S. Border Patrol. We also enlist camera 
systems to monitor smuggling pathways. We have reported 
hundreds of illegal aliens and drug smugglers during our 
operations. Hundreds of illegal aliens have been rescued by our 
volunteers. These are people who have been cheated of their 
money and left alone in the wilderness.
    We are currently in our second week of operations, and we 
have been busy. We see many OTMs--``other than Mexicans.'' The 
Rio Grande Valley, the McAllen sector, leads the Nation in 
OTMs, with 20,284 individuals as of September 19, 2011. This is 
for this fiscal year. If the Border Patrol only catches 8 or 
10, then we have an astronomical number of OTMs slipping into 
our country every year. We have seen groups carrying guns, and 
I will answer questions on that. People from special-interest 
countries, such as Iran, Pakistan, Afghanistan, and Iraq, are a 
concern for all of us. Our other countries represented in OTM 
apprehensions include Dominican Republic, Sudan, Eritrea, 
Somalia, Sri Lanka, Nigeria, Ethiopia, Venezuela, Vietnam, and 
more.
    Dangerous encounters: I found a rancher on a highway after 
dark who was robbed, tied to a tree, shot twice, and had his 
truck stolen by two illegal aliens. He was rushed to the 
hospital and survived. I had five illegal aliens with sticks 
and cedar posts attempt to take my truck away from me when I 
was leaving a ranch gate.
    Encounters with smugglers and illegal aliens are daily 
occurrences, and most ranchers and their families are not 
leaving the house without being armed. In many parts of the 
country, many ranchers cannot keep employees for the fear that 
is constantly circulating. Our lives have been severely 
compromised, to say the least.
    The Border Patrol's budget in south Texas has been 
dramatically cut. Local and State law enforcement and Border 
Patrol need help, and we need it now. We all, as Americans, 
need them to have adequate resources to win this war on our 
Southern Border.
    Again, I thank you, Members of the committee, for having me 
here today. I look forward to answering any questions.
    [The statement of Dr. Vickers follows:]

                 Prepared Statement of Michael Vickers
                            October 14, 2011

    Thank you Chairman McCaul, Ranking Member Keating, and Members of 
the committee for inviting me here today.
    I'm Dr. Mike Vickers, a rancher and veterinarian from the city of 
Falfurrias in Brooks County, Texas.
    Brooks County contains a Border Patrol check point that is 
approximately 65 miles from the Mexican Border (Reynosa Mexico). I have 
come here today to testify on the violence, crime, and lawlessness that 
is overwhelming Brooks County and its surrounding counties. Most 
counties in Texas that have Border Patrol Checkpoints are rural 
counties with small sheriff departments. Human and drug smuggling by 
gangs and organized crime has overwhelmed our local sheriff's 
department. Brooks County sheriff's department has 6 deputies to patrol 
943 square miles of ranch country. Many ranches are left to fend for 
themselves.
    Ranchers are being threatened if they call Border Patrol or local 
law enforcement to report smuggling activities on their property. Some 
have left their ranches and have moved to the cities of San Antonio, 
McAllen, or Corpus Christi. There are hundreds of smuggling routes 
throughout Brooks and its surrounding counties that are used by 
criminals to skirt the Border Patrol Checkpoints.
    This year our sheriff's department busted a large drug ring 
affiliated with the Zeta Mexican Drug Cartel. For over 7 years they had 
shipped over 2,000 pounds of narcotics a week through our ranches. An 
unsealed indictment revealed that two Zetas had come to Falfurrias and 
were shown where our sheriff deputies lived so that they could come 
back, kidnap them, and find out who the informant was. This is still an 
on-going concern.
    Property damage is staggering; cut fences, mountains of trash, 
destroyed water sources, vandalized homes, and stolen vehicles are 
everyday occurrences. Large range fires have also been set by 
smugglers. A recent fire killed at least 3 illegal travelers and 
required many more to be air lifted to safety. This picture is of a 
ranch fire this year started by a vehicle with Mexican plates that left 
the road fleeing the Border Patrol and DPS (Department of Public 
Safety.) It carried 21 illegal immigrants and was clocked at 112 mph by 
DPS. Border Patrol was able to save 4 of the trapped passengers moments 
before the truck exploded. The truck passengers were undocumented, 
illegal immigrants from India.
    Most unsettling are the dead bodies showing up on the ranches. 
Fifty-one illegal aliens' deaths have occurred so far this year with 
another 31 reported still missing and nearly 500 total deaths since 
October 2004. Some are murdered but at least all are criminal 
homicides. One day when my wife came home she noticed the dogs playing 
with a round object in the yard. It was a woman's skull. Her body was 
found about 150 yards from our back door. She had a fractured tibia. 
She didn't walk out there with a broken leg. We suspect rape and 
murder. Other dead women were found on my south fence and my neighbor's 
ranch during that same period.
    Last year three female skeletons were found on an adjacent ranch 
southeast of my home. Many women are sexually assaulted, raped, and 
brutalized. Last Saturday night a group of women were given a pill by a 
Coyote (a human smuggler) to give them endurance for the trek around 
the Checkpoint. All of the women became drowsy and fell asleep. One 
awoke that morning nude next to the nude coyote. She grabbed her 
clothes and fled. Fortunately she found the highway and then the Border 
Patrol found her. She was raped and our sheriff's department is 
investigating. Many women dress like men because of the threat of 
sexual assault.
    Dealing with the dead bodies has exhausted our County resources. I 
have aerial photos of our Sheriff Departments compound containing 
hundreds of vehicles confiscated from drug and ranch smugglers. Seven 
years ago myself and others started a group called The Texas Border 
Volunteers to help law enforcement control the smuggling through 
private property. We are concerned about the other thousands of people 
coming in to our State and Nation without us know who they are and 
where they come from. We have monthly operations and report criminal 
activity to law enforcement (USBP). We also enlist camera systems to 
monitor smuggling pathways (see photos). We have reported hundreds of 
illegal aliens and drug smugglers during our operations. Hundreds of 
illegal aliens have been rescued by our volunteers. These are people 
who had been cheated of their money and left alone in the wilderness. 
Many go lost for days without food and water and ultimately die. We are 
currently in our second week of operations. Tuesday night we reported 
and assisted Border Patrol in apprehending 15 illegal aliens (criminal 
trespassers.) Thirteen of them were from Mexico, one was from Honduras, 
and one other from Guatemala. We see many OTM (Other Than Mexican). The 
Rio Grande Valley (McAllen) sector leads the Nation in OTM's with 
20,284 individuals as of September 19, 2011 (figure for this fiscal 
year). If the Border Patrol only catches 8-10% then we have an 
astronomical number of OTM's slipping in every year.
    We have seen groups carrying guns. On one operation the coyote 
leading 33 Chinese illegal immigrants was carrying a rifle.
    Diseases are a big concern both human and animal alike. There is a 
big fear of Hoof and Mouth disease being brought in from China. 
Currently there is an outbreak of Hoof and Mouth disease in Taipei, 
Republic of China. Chinese have been a leading OTM group in the 
Falfurrias Border Patrol area. During our March operation, illegal 
Chinese immigrants had paid $50,000 each for transportation into the 
United States. Africa also has Foot and Mouth disease, and many 
Africans are being smuggled through South Texas.
    People from special interest countries such as Iran, Pakistan, 
Afghanistan, and Iraq are a concern for all of us. Other countries 
represented in OTM apprehensions include Dominican Republic, Somalia, 
Sri Lanka, Nigeria, Ethiopia, Venezuela, Vietnam, Bangladesh, Ukraine, 
Poland, Columbia, Ecuador, and more.
    Some ranchers want to sell their land and move away, but they are 
finding there are no buyers willing to purchase their ranch land. Many 
properties simply won't sell because of the prevalent criminal 
activity. Numerous ranches along highways cannot graze cattle because 
of the constant fence damage. My fence along US Highway 281 is 
electrified. Some of my clients along the river have ceased agriculture 
operations because of threats or they have a present danger. Ranchers 
on the Mexican side have been run off their property and the cartels 
are fighting on their land for river access. My partner and I have both 
heard machine gun fire when working on ranches close to the river. Now 
hunting leases are in jeopardy of being dropped by hunters fearing the 
danger. This would be a big blow to the economy of the county and the 
individual ranches.

                          DANGEROUS ENCOUNTERS

    I found a rancher on a highway after dark who was robbed, tied to a 
tree, shot twice, and had his truck stolen by two illegal aliens. He 
was rushed to the hospital and survived.
    A friend's wife was attacked by 10 Guatemalan illegal immigrants as 
she was attempting to open the ranch's main gate while bringing the 
kids home from school. She was able to jump in the car and escape.
    I had five illegal aliens with sticks and cedar fence posts attempt 
to take my truck when I was leaving a ranch gate.
    This year a group of Indian illegal immigrants tried to take the 
vehicle from a neighbor's ranch hand.
    Encounters with smugglers and illegal aliens are daily occurrences 
and most ranchers and their families are not leaving the house without 
being armed. In many parts of the county many ranchers cannot keep 
employees because of the fear that is constantly circulating.
    My wife has had numerous frightening encounters. One in particular 
was a large muscular man with a pencil-thin mustache and beard that 
followed her from her horse barn up to our house. He was not speaking 
English or Spanish, and she had no cell phone or weapon. She was able 
to make it safely inside the house and call the Border Patrol. He 
continued to try to walk up into the driveway of the house but luckily 
the Border Patrol arrived quickly. That was the last time she left the 
house unarmed or without her cell phone. The man was a Brazilian split 
from a group of 40 other illegal Brazilian immigrants, and he was 
speaking Portuguese.
    Recently two Coyotes in a vehicle loaded with illegal aliens plowed 
through a local woman's residence. She was killed.
    Our lives have been severely compromised to say the least. The 
Border Patrol's budget in South Texas has been dramatically cut. Local 
and State law enforcement and Border Patrol need help! We all as 
Americans need them to have adequate resources to win this war on our 
Southern Border.
    Again, thank you again to the Members of the committee for having 
me here today. I look forward to answering any questions you might 
have. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. McCaul. Thank you, Dr. Vickers, for your very vivid 
testimony.
    Let me just say from the outset--and I think we are going 
to have a very lively discussion, a good dialogue here today--
but let me say from the outset, I don't view this as 
Republican/Democrat issue. I don't see it as a partisan issue. 
I see this as a bipartisan issue. When it comes to National 
security and securing our borders, this should be a bipartisan 
issue.
    I think, you know, if anything, at yesterday's 
authorization, you know, Mr. Cuellar and I sponsored several 
bills together--one to double the size of the BEST teams, 
another one to provide Border Area Security Initiative grants 
for local law enforcement and sheriffs--and that is as it 
should be.
    So I am not going to try to spin this into a political 
theater event. What I am interested in are these two generals, 
who have taken a lot of time out of their--they are busy, but 
they took a lot of time to write what I thought was a very good 
report.
    You know, we have talked about maybe coming up with a 5-
point plan, if you will, or a 10-point plan, in terms of how we 
can better secure this Nation from this threat. So I would like 
to hear from the two generals, in terms of, if you had to 
prioritize, say, the top 5 or top 10 points in terms of what we 
need to do as a Nation, how would you respond to that?
    General McCaffrey. Well, Mr. Chairman, let me begin by 
thanking Chief Deputy Aguilar for her testimony.
    I might add, I don't have a bit of disagreement with 
anything she said about El Paso as a city or a county. Although 
I might add that I had a meeting, personally, in a closed room 
with 100 people from both Juarez and El Paso within the last 18 
months. In that entire room, both sides of the border said they 
feel intimidated. A senior police official in the city of El 
Paso, in response to a question from a Mexican national, said, 
``If these people come across the border, I will not be able to 
protect you.'' I was astonished. Texas DPS was in the room when 
we had this seminar to educate me on what was going on.
    So I do think, though, that we should accept as a reality, 
nonpartisan--I am not running for public office, and I am not 
associated with either party. I have been working that border 
for a long time. The rural areas are absolutely threatened, and 
Dr. Vickers' testimony should be given great credence.
    Now, having said that, No. 1, if we took the border, from 
one end to the other, the 24 Southwest Border counties, and 
made a State of them, you would say a couple of things. No. 1, 
they are 51st in per capita income, 51st in health care. You 
can go on. They are the poorest counties in the United States, 
but they are No. 1 in documented Federal crimes.
    So I would argue this is not the responsibility of border 
sheriffs. Hudspeth County: 12 deputies, 5,000 square miles, an 
intimidated population, cartel presence in the county. We can't 
protect America unless the Border Patrol and the other parts of 
the system--you can't just increase manpower in the Border 
Patrol. The Federal Marshal Service, DEA, FBI, the court system 
has to be enhanced also. We have to get resources adequate to 
counter this challenge.
    I think the second aspect of it, not the subject of this 
hearing: We can't protect America unless we reform immigration 
law in the United States. We have 10 million people running our 
agriculture system, meatpacking, daycare centers, et cetera. 
These humble, hardworking, spiritual people are here making 
America's economy work. They can't go to the local police and 
ask for protection because they are here illegally. They can't 
wire their money home to their mother. We simply must reform 
and have a guest-worker status where these people are protected 
by OSHA safety standards, minimum wage, et cetera. Without 
which, we are not going to affect the border.
    Then, finally, I think we have to get real assets to the 
Mexican government. I think I mentioned we had given them 11 
helicopters in 3 years. Thankfully, during the Clinton 
administration, we got over 250 aircraft to the Colombians, who 
have turned the situation around in a 10-year struggle.
    Those would be my top three recommendations.
    Mr. McCaul. Let me say in response to that, as well, that 
we have met President Calderon several times, and I have 
tremendous admiration and respect for what he is doing. I agree 
with you, it is anemic, the funding.
    The Merida Initiative has had some success, but we need to 
look at, post-Merida, what are we going to do? We have been 
working on a plan to get the Colombian special forces that have 
been trained by our guys to work with the Mexican military to 
crack down on these drug cartels in Mexico. I think they 
assimilate better. I think President Calderon is very 
interested in that idea, and I think we are going to make some 
progress on that.
    My time is somewhat limited, but I have to touch on the--
Dr. Vickers, you talked about the ``other than Mexicans.'' I 
know that that number--you know, the seasonal worker is not the 
threat here. The threat is the ``other than Mexican'' coming 
in. I think the events of this week, demonstrating that an 
Iranian operative was reaching out to what he thought was a Los 
Zetas drug cartel member to arrange a team of assassins to 
bring explosive devices across the Mexican border into the 
United States to take out the Saudi Ambassador highlights this 
threat that we face, you know.
    When you look at Hezbollah's 1980 fatwa, they say, engaging 
in drug production and trafficking, explicitly stating that 
making these drugs for Satan, America, and the Jews--if we 
cannot kill them with guns, we will kill them with drugs. Then 
in 2008, El Universal reported that the Mexican Sinaloa drug 
cartel was sending elite assassins to train on weapons and 
explosives with Islamic radicals in Iran.
    Now, whether that is--you know, that is a report. Is this 
happening? What is the Islamic Hezbollah connection to Latin 
America? We know there is a Tehran-Caracas connection to 
Venezuela. We know that Hezbollah is very--there is a heavy 
presence of Hezbollah in the Western Hemisphere.
    If I could refer to this, here we have the Iranian 
operative, Mr. Mansour, who thinks he is contracting with these 
drug cartels, who are pictured on the right here with these 
assault weapons, these AK-47s. This is the threat. This is one 
we have been warning about for years.
    That is my concern, as a former counterterrorism official 
and as a Member of this committee who is looking at border 
security issues. This makes the border that much more 
imperative that we have to get it secure.
    Mr. Reyes. Mr. Chairman, will you yield on that point?
    Mr. McCaul. I want to hear from the witnesses, if that is 
okay, and I would be happy to have a further discussion.
    But to the two generals, I mean, you are giving a military 
strategic assessment of this threat. How do you view this 
connection? I think it highlights even more so that we need to 
be paying attention.
    Granted, most of this violence is taking place in Mexico. 
Forty thousand people killed in Mexico. Juarez, when I went in 
there, 6,000 people killed. I had the same security I had going 
into Afghanistan.
    So what needs to be done? General Scales, I want to give 
you the opportunity to answer before my time has expired.
    General Scales. Yeah, I will be very brief. I am a soldier, 
and I wrote this--well, we wrote this report from the 
standpoint of the military, but what I would like to do is cut 
through the politics for a minute and give you four or five 
things that need to be done in addition to more funding. Money 
is important, but other things we have discovered are equally 
important that don't necessarily deal with finances.
    First of all, we believe that Texas is a template, for many 
reasons that we talk about in the report, particularly the 
aggressive action of the Texas Rangers. In many ways, the 
Texans' system has proved to be one of the best we have seen.
    Second, we need to improve coordination, communications, 
intelligence-gathering between State, local, and Federal. We 
need to focus right here--right there. The tactical side of 
this battle, where, as we know, all wars--Afghanistan, Iraq, or 
the Southern Border of Texas--are won or lost is at the 
tactical level of war. We don't put the resources at the 
tactical level I believe that we should. So it is not just the 
money but where you put it.
    I think we need to do a better job of cross-border, to use 
my phrase, joint operations with the Mexican military. I 
understand all of the political problems, beginning with the 
Mexican war in the mid-19th Century. I have got it. But in 
those few instances where the Rangers and the Feds and the 
locals and the Mexicans operated together on both sides of the 
border, they effectively shut down drug trafficking for days. 
That needs to be a template for how to do it.
    We need to use cost-effective, cheap, off-the-shelf 
technology to build--not just build a fence but to build a 
fence that is strategic in nature and can be observed. You 
know, there is an old saying in the military, any obstacle that 
is not covered by observation or fire is useless, and the same 
thing is true here. In the State of Texas, they have taken deer 
cameras and GPSs and cell phones and put them together in 
cheap, anti-intrusion systems that have worked extraordinarily 
well.
    The final point I will make is schooling. You know, one 
thing we learn in the military is the military is a learning 
institution. Information sharing, teaching, and learning 
between all the three levels--State, local, and Federal--but 
particularly local, it is important for us to stay ahead of the 
enemy intellectually, not just physically. Because the cartels 
are smart, adaptive, flexible, heartless, and cruel 
organizations. If they out-think us as well as out-fight us, 
all the Federal money in the world won't make a difference.
    Mr. McCaul. Thank you, General.
    I see my time has expired, but let me just end by saying, 
thank you again for this report. I think it is very valuable. 
Commissioner Staples, thank you for your effort on this, as 
well. I think Texas has done a lot of things right and has 
provided a model, I think, for the other border States.
    I think, Congressman Cuellar, you and I talked about coming 
up with maybe a 5-point plan or a 10-point plan--Silvestre 
Reyes. I think the two generals just, I think, came up with 
some pretty good ideas that we could perhaps work together on 
going forward.
    So, with that, I recognize the Ranking Member, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    You know, I am struck by listening to all of you, and I 
think there is an amazing consistency here. So if people are 
coming to this hearing and think there isn't, I want to hear 
about it. This is the amazing consistency I have heard.
    Now, as a DA before, there would be reports from year to 
year saying that in my county we had one of the lowest homicide 
rates. So the press would call me up and people would call me 
up and say, ``Well, what do you think about that?'' I said, 
``Well, I am not happy. I am not happy because people are 
getting killed. It doesn't matter about numbers; people are 
getting killed.'' That is what I see here.
    I see here presented a picture, El Paso is safe compared to 
other large, large areas. I see it is thriving. I see a good 
community. I see the economy doing well. Yet, I listen to Dr. 
Vickers and I get it. Within that broad view, there are some 
terrible, terrible things going on that have to be addressed. 
To say, statistically, everything is safe begs the issue that 
there are still huge problems to deal with.
    So, the first comment I make is one of perspective, that, 
you know, look at the big picture, then look at the very 
important telescopic view of what is going on to ranchers and 
people and what is going on there.
    I do say this--and I think we are not going to make 
progress at the hearing unless I get this out. You will get 
your chance, I hope, if I don't run out of time, to discredit 
this. I understand the two generals were asked for a military 
strategic plan, but I must say this.
    I think, looking at the big picture, to sit there and use 
the language that said conducting business on the Texas border 
is tantamount to living in a war zone, I don't think that 
rhetoric helps, because I don't think it presents the real 
picture. Are there warlike tactics on ranchers? Yeah. But don't 
give the impression, in my opinion, that the whole area is like 
that, because that is not what I am hearing.
    The other thing is--and I just want to get my positions out 
here. I am really pleased with what General McCaffrey said, 
because this is what I believe too. I believe, No. 1, the 
resources are inadequate. We made the analogy between 
Afghanistan and Mexico and how much is spent there and how 
little is spent on a very real issue that threatens our safety 
and security in this country, not just in the borders, not just 
even in Austin, but I think looking at it in the big picture, 
it affects many of our major cities. I was listening to General 
McCaffrey talk about how these cartels are pipelines and they 
are the people bringing death and danger to the rest of the 
country as well. So this is a big issue, and it extends beyond 
the borders. So I agree with General McCaffrey in that respect.
    I also believe his comments about comprehensive 
immigration. If you want people to speak up, if you want people 
not to be turned into soldiers for the cartels that are 
crossing the border back and forth, the people that are coming 
over, working, and are obeying the laws, other than being here 
illegally, they can't come forward and do anything if they are 
threatened with the laws themselves.
    If you want them to have a stake in the action, if you want 
them to be part of the solution and stand up and fight these 
cartels, we have to do something to let those people that are 
coming here be here legally so that they are not afraid to 
speak up and not afraid to be used and not afraid to be 
intimidated, and their families. That is an important point you 
brought up. You said it was tangential; I think it is central.
    Also, if we are talking about resources, consistently with 
all of you, those resources are necessary. So I want to tell 
you, just as one person, I will support that comprehensive 
immigration reform so that we can fight and people have a stake 
in the action. We are not going to win unless people have a 
stake in the action and can fight.
    I am going to fight for more money. I am not alone. Our 
Ranking Member and the Members of this committee, I think they 
can speak for themselves. A lot of people want to spend that 
money. I am not trying to be political but factual. The 
majority in this House, in Congress, voted to cut. We need more 
money if we are going to do the job. That is a fact I see.
    So, as I look forward, you have my commitment on funding 
this, not cutting it. You have my commitment on dealing with 
immigration. You have my commitment to go forward and realize 
that this just is more than a border problem; this affects 
every citizen in the United States. We better wake up and 
understand that.
    To Dr. Vickers, we owe all the resources we can to you 
folks who are just unduly and inordinately and beyond sometimes 
comprehension being attacked by people. I hope some of those 
Federal resources can supplement the good job I think that the 
local police are doing trying to combat this.
    So those are my feelings. If in the few minutes or seconds 
you have left, if someone wants to contradict anything I said, 
go to it. I want to know if I got the picture from what you 
have said.
    General McCaffrey. Let me also agree on the one point you 
thought might have been in contention. I think this is a 
criminal threat. This isn't war. The solutions aren't military. 
The last thing we ever want is one U.S. soldier across that 
border, even if invited by the Mexicans. I think we have 
depended unduly upon U.S. military support of the U.S. Border 
Patrol. We ought to build institutions, Federal law enforcement 
institutions, that are adequate to do the job.
    Now, having said that, you know, I have been watching this 
at a close range since 1996, as a friend of Mexico and a friend 
of the border communities. We are out of control on that border 
in rural areas, and those people need protection. It ought to 
be Federal law enforcement, with resources also devoted to 
sheriffs' departments who simply can't keep up--not just the 
sheriff's department, the local prosecutor, the coroner. They 
can't even do autopsies. These are homicides, people murdered 
on U.S. territory, and we are not protecting them.
    Thank you, sir, for your comments. I agree.
    Mr. Keating. Thank you, General.
    I am over my time. I just want to throw something out. You 
can answer it if some of the other Members of the committee 
have questions as it goes along. If you can fit it in, good. I 
don't want to overdo my time. But General Scales brought up 
another point about how Mexican law enforcement officials have 
to work hand-in-hand with American law enforcement and Federal 
officials. If you get the chance in your questions--you don't 
have to answer it now--tell us how we can better do that. Thank 
you.
    Thank you, Mr. Chairman. With that, I yield back to you.
    Mr. McCaul. I thank the Ranking Member for his usual 
thoughtfulness and good suggestions.
    I would submit that, as we draw down in the Afghan 
conflict, that it is my hope that we can channel those 
resources to this threat that we have right next-door in our 
backyard. It is also my hope that, as the BEST teams, as we 
double the resources there, that the moneys that they seize, 
the cash going southbound, that we can redirect that right back 
to the border and right back to the BEST teams.
    So, with that, I recognize now the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Thank the panelists for being here. This is a very timely 
discussion.
    You know, I don't think anyone that has followed the issue 
of the Southern Border and Hezbollah and the Mexican drug 
cartel, I don't think it caught any of us by surprise that the 
Iranian Quds Force would utilize the Mexican drug cartel as a 
conduit for wanting to bring God knows what into this country 
and commit a heinous crime in the sovereign United States of 
America.
    We were lucky. There is an old saying, I would rather be 
lucky than good any day. But America needs to realize that we 
were extremely lucky that the person they contacted was a DEA 
undercover agent posing as a member of the Mexican drug cartel, 
as an assassin, that they contacted about helping them cross 
the Southern Border.
    Let me just remind the committee and others that Iran has a 
growing influence on Western Hemisphere. They have opened six 
embassies in the last 5 years in this hemisphere. We know the 
Venezuelan connection. But keep in mind that if this plan 
hadn't gone forward, a backup plan or an additional plan was to 
commit another attack in Buenos Aires. Let's keep in mind that, 
prior to 9/11, the attack on the sovereign United States of 
America, that the largest single attack in the Western 
Hemisphere happened in Buenos Aires, Argentina, with an attack 
on the Israeli Embassy and cultural center. That was their 
secondary attack this week--or, rather, in June that was 
announced this week.
    I want to urge my colleagues to get behind House Resolution 
429 that I filed on Tuesday that urges the administration to 
include the Western Hemisphere in its area of focus in the next 
counterterrorism strategy. I think that is important. I think 
that is going to be singled out today and as we go forward in 
investigating what went on this week.
    So, gentlemen, I just want to ask--I guess I will ask 
General McCaffrey. First off, I want to thank you and General 
Scales for your service to our great Nation; the other 
panelists, for what you are doing in Texas, for that sovereign 
State, but also for America.
    But I am from South Carolina. We are a long ways from the 
border, but we are impacted. As you saw on the screen earlier, 
the flow of drugs and crime into this country comes through my 
State, as well. So we are very concerned about what crosses our 
border, who crosses our border, and the sovereignty of this 
Nation. So I want to thank you as well as the generals.
    Generals--and I will ask General McCaffrey--can you 
elaborate on whether or not it is possible for Hezbollah to 
exploit the drug- and human-smuggling routes and networks used 
by the Mexican drug cartels to attack the homeland? If you 
could tie in any knowledge you may have with the Mexican drug 
cartels' tunneling under our border and any relation it may 
have to or similarity to the tunnels that may be found in 
southern Lebanon.
    General McCaffrey. I always caution people, I am an 
infantry officer, so if you ask me two questions, I forget the 
first one.
    But let me, if I may, say that it is clear to me that our 
primary threat across that border is drugs. It essentially sees 
a thousand cities in the United States whose dominant criminal 
activity comes out of hundreds of metric tons of meth, cocaine, 
heroin, ecstasy, et cetera. That is what is happening.
    By the way, it used to be Colombian criminals, Dominicans, 
Nigerians, Russians, low-IQ gringos, and now primarily it is 
Mexicans. Some of that, I might add, is because the dominant 
cartel activity that used to be in Colombia, they have been 
beaten by the Colombian national police and the courage of the 
Colombian leadership. So they have ceded ground and the 
Mexicans came in, have now got an end-to-end solution. So we do 
have to be concerned about that, as it is overwhelmingly what 
Americans in Portland, Oregon, and Yakima, Washington, and 
upper-State New York, and South Carolina care about.
    In addition, however, I think your point is a good one. It 
is hard to imagine us protecting America from a 
counterterrorism threat if we don't have a unified Federal law 
enforcement strategy to protect America's borders. We don't. 
The Border Patrol has a decent internal strategy. There is the 
most complex, Byzantine, mixed-up mess of Federal authorities 
trying to coordinate activities. If you are a sheriff of a 
border county, trying to sort out who you go to is almost 
impossible. What would pass for a strategy are really to-do 
lists that, if funded, would result in further improving 
safety.
    So I don't think we have done our job at the Federal level 
at all. I don't mean that as an attack on DHS. Thank God we put 
together the Department of Homeland Security--180,000 people, 
put $40 billion a year into it with new resources. We would 
have a disaster. But it is inadequate, it is not coordinated. 
As General Scales mentioned, it is not adequately coordinated 
across that border. The DEA is doing an unbelievably good job 
of coordinating in Mexico, but not Federal law enforcement 
authorities on our side of the border.
    General Scales. Congressman, let me just answer your 
question very briefly.
    As we get better at detecting and tracking terrorists from 
these named countries, the terrorists get more committed to 
coming to America through our unprotected borders. The days of 
going through JFK, thanks to the terrific work that DHS has 
done, are not over but extremely difficult.
    We have a record of one gentleman who tried--an Iranian--I 
think it was Iranian--who tried six different countries, to 
include Indonesia, Cuba, Russia, and others, to break in to the 
United States, if you will, and he finally only managed to do 
it when he linked up with the cartels.
    The cartels are apolitical about this. They want to make 
money. If a guy from Iran shows up with, in this case, a 
million-and-a-half dollars to smuggle him across the border, 
more than happy to do it.
    Our grave concern is: How many have we missed? How many who 
have sought political asylum and had to be let go in Texas have 
joined a terrorist group? We don't know because we lose track 
of them, unfortunately, when they go through an unsecured 
border.
    Mr. Duncan. Let me just, in my remaining time, reference a 
document that we forget about, and that is the Constitution of 
the United States. Article 4, section 4, says, the United 
States shall guarantee every State in this Union--and Texas 
freely joined this Union as an independent country, if we are 
reminded--but will guarantee every State in this Union a 
republican form of Government and shall protect each of them 
against invasion.
    That is not my words; that is the words here, ``against 
invasion.'' You look up the definition of invasion, it takes 
many, many different forms. I believe we are seeing a form of 
that on the Southwest Border.
    I yield back.
    Mr. McCaul. I thank the gentleman.
    The Chairman now recognizes the Ranking Member of the full 
committee, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Let me at the outset thank our witnesses for their 
thoughtful comments today. It clearly reflects that you have 
given this subject matter significant study, and I appreciate 
you for that.
    Dr. Vickers, let me say to you that your concern for your 
county and the people living in it is duly noted. One of the 
things we are trying to do is to push resources to the 
sheriffs, as well as other localities.
    General McCaffrey, your comments about a coordinated 
Federal law enforcement effort is some of the things we are 
concerned about, because right now the proposed DHS budget is 
to be cut. That cut doesn't push more resources to the border; 
it takes away. Whatever you want to say, a cut is a cut.
    We have tried to add person power to Customs and Border 
Protection, as I said, as late as yesterday in our authorizing 
markup. We were not successful, but we are not going to give 
up. We have talked to the men and women on the ground, just 
like property owners. You absolutely have to have resources. 
Now, those resources go beyond just individuals. It is that 
coordinated strategy that we don't have. So it is a combination 
of fencing, air support, whether it is unmanned drones or 
whatever, along with the local individuals. So we hear you.
    One of the things we are beginning to hear also is that, as 
the drugs come north, the money and guns go south. So now, to 
the generals, how do you suggest we deal with the guns and 
money going south as part of this deterrence to deal with this 
issue?
    General McCaffrey. Thank you, sir, for those comments. I 
fully agree with you.
    By the way, one of the political problems I think you face, 
not me, is if you are trying to get resources out of Congress 
but you are simultaneously saying the problem isn't very 
important, the murder rate is tiny, El Paso is like 
Switzerland, there isn't much of a problem on the border, you 
are simply not going to be able to get the resources for 
Customs and Border Protection that are required. So there is a 
tension here between, on the one side, diminishing the apparent 
scale of the threat while trying to, rightfully I think, 
enhance the resources.
    I also think we owe it to the Mexicans to not see the 
problem as their threat to us but recognize it as a mutual 
responsibility. Every time I look at seizure rates, our seizure 
rates on cash flowing south are nonsensical. We don't get at a 
bit of it. When we take pride in seizing $20 million or $40 
million, that is a drop in the bucket.
    Now, to do that, I might add, though, is a real problem. I 
stood there at the Bridge of the Americas in El Paso, and you 
look at the cars going into Mexico at night. You don't see any 
taillights. They are not slowing down. They are driving right 
by Mexican law enforcement, going into the country.
    So we would have to establish on our side of the frontier--
by the way, the most important issue day-to-day is economics. 
We do not want to see an end--Mexico is our third-biggest 
trading partner, probably No. 2 on energy, tremendously 
important to our country. We can't stop traffic at that border. 
So, to do that, we would have to establish new forms of 
control: How do you look for money going south?
    Finally, we have the problem of guns. I am a gun nut. You 
know, I have--my son and I are gun nuts. We are shooters, 
hunters. But somehow we have to, in those four border States, 
find a way to ensure that individuals cannot buy dozens of 
automatic weapons or semiautomatic weapons that can be easily 
fixed and allow them to go south and murder Mexican police and 
marines and soldiers, never mind our Border Patrol agents.
    Now, I don't mean to divert, by the way, to this bone-
headed ATF operation. I am talking about the larger issue of: 
How do we protect Mexico?
    Mr. Thompson. Well, and I appreciate it. I was the top gun 
for the Democrats at the last sporting place, so I understand 
guns, too. But I use them in a sporting context and not other.
    Dr. Vickers, you talked about the resources. What kind of 
resources do you envision as being helpful to a county like 
yours?
    Dr. Vickers. Well, we need to start at the local level. 
This is where it needs to start. Like rural counties like I 
mentioned in my testimony that have these Border Patrol 
checkpoints, most of them in Texas have very small sheriff 
departments because we are small-populated counties. Our county 
has about 6,000 people. Kennedy County on Highway 77 that has a 
checkpoint only has 400 people.
    So these sheriff's departments are on the front line. A lot 
of times, they are the first person that somebody calls when 
they have an incident or an issue or a life-threatening 
situation on these ranches and they call 9-1-1. Sometimes, and 
a lot of times, the Border Patrol can't respond because they 
are tied up at the checkpoint with maybe a drug bust or some 
other activity.
    So it is critical that we give adequate funding to these 
sheriff's departments one or two counties in that have these 
check points. It is critical. Our sheriff's department right 
now has an application for a grant for $410,000 or $412,000 for 
a lot of equipment that would really help us in that county. 
Adjacent counties that have similar problems need the same 
thing. So this is where we need to start.
    Then we need to help the State. We need more helicopters. 
Our DPS and our Texas Rangers are strapped, overworked. They 
are doing a great job, but it is not enough. We need twice as 
many helicopters, twice as many State troopers to be able to 
assist the Border Patrol in this war we are fighting down in 
South Texas.
    Mr. Thompson. Well, thank you very much. So the underlying 
comment is, we have to have more resources available to the 
border than less resources?
    Dr. Vickers. Oh, absolutely. We need more resources 
starting at the county level and going up through the Border 
Patrol.
    Mr. Thompson. Thank you very much.
    Mr. McCaul. Let me thank the Ranking Member. I agree with 
you, we need more.
    I just wanted to say I think the southbound flow of cash 
and weapons is the big issue, which is why we doubled the size 
of these BEST teams that can seize those weapons and cash and 
strangle the lifeblood of the drug cartels. You know, in 
addition, we authorized additional UAVs for the border. The 
Border Area Security Initiative grants that you talked about, 
Dr. Vickers, was authorized in my amendment, which was joined 
by Congressman Cuellar.
    Finally, technologies used in Afghanistan on the 
Afghanistan-Pakistan border, we are moving those technologies 
to the Southwest Border, and I think that is smart. As we wind 
down our operations there, the error stats, the sensor 
surveillance that we are not going to be using there we can 
move and deploy to the Southwest Border and save the taxpayers 
some money, as well.
    With that, I would like to recognize the gentleman from 
Florida, Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much.
    Thank you for your testimony.
    A question for the generals: Why are the Iranians, in your 
opinion, opening up embassies, as the gentleman from South 
Carolina indicated, throughout Latin America, including 
countries where there are no significant commercial 
relationships or expatriate communities? Is it possible to get 
platforms to the intelligence services and terrorist proxies? 
Does it have to do with the relationships between these 
services and terrorist groups and drug cartels?
    I have one more question after that.
    General Scales. Thank you, sir.
    Very briefly, I don't think that there is any question but 
that terrorist-exporting countries like Iran, for instance, I 
don't think there is any question that they have a grand plan. 
They have allies in South and Central America governments that 
are willing to take their ideologies or embrace their 
ideologies and give them an entree or a launch point or a lily 
pad, if you will, for entry into the United States.
    What is important to understand, though, is if it weren't 
for the cartels and the cartel involvement, they would have a 
tough road, coming from Mexico north. You know, it is like a 
Sopranos' type of organization. You know, you are standing on a 
street corner and all you want to do is just have the grease. 
That is the way the cartels are. They are generally not 
political or ideological. They are there to expedite illegal 
activity.
    My concern--and I think it is evidenced by what happened 
the other day--my concern is that the working relationship, the 
familiarity between governments like Venezuela and cartel 
organizations like the Zetas, who are essentially military 
organizations to begin with, will become ever more intermixed. 
It will become more and more profitable.
    So here you have an odd situation, don't you, where you 
have petrodollars supporting a lily pad in Venezuela being 
pushed forward by narco-dollars. It is a very, very dangerous 
situation for the country. Frankly, until what we saw last 
week, it wasn't something that, sort of, was viewed very highly 
on our screen.
    But I will tell you what. All we need is for something like 
this to succeed, God forbid, by some--you know, pick your 
terrorist, working his way through the Southern Border, to be a 
wake-up call for the Nation. God forbid that it should ever 
happen.
    Mr. Bilirakis. General, would you like to comment, as well?
    General McCaffrey. Well, I really would join Dr. Scales' 
comments. The dominant concern we in the United States have is 
criminal activity distributing hundreds of metric tons of drugs 
in our cities, and we end up with--pick a study you believe. I 
say there is around 5 million Americans that are chronically 
addicted to illegal drugs.
    I was just out in Utah yesterday at a Nation-wide 
conference on troubled youth. At the end of the day, the 
problem affecting the United States is still cocaine, meth, 
high THC content, alcohol abuse by youngsters. So that criminal 
activity is what we have to focus on.
    Having said that, I think your point is entirely correct. 
How could we pretend to protect America if the Federal law 
enforcement agencies lack the strategy and the resources to 
control our frontier? They do not control our frontier. They do 
a terrific job protecting El Paso and Laredo and San Diego. 
Part of that, by the way, is fencing, strategically placed. But 
the rest of the border, as Dr. Vickers and others will tell 
you, is free movement of heavily armed people.
    On the other side of that border--you can look across the 
river into Juarez--you are talking company-size fire fights 
with grenade machine guns, anti-aircraft guns, military hand 
grenades. These are not, you know, a mafia shakedown of a guy 
with a fruit stand. These are huge, lethal organizations, who 
so far, by and large, have decided for business reasons to not 
go after U.S. law enforcement, generally, on our side of the 
frontier. It is coming. This situation is getting worse, and we 
have to organize ourselves now to protect ourselves.
    Mr. Bilirakis. Thank you.
    Last question, Mr. Chairman.
    Is it true that some of the car bombs recently being used 
by the cartels in Mexico are technically very similar to car 
bombs designed, used in Iraq by Iran's terrorist proxies there? 
Would you say that would indicate--if that is true, would you 
say that would indicate possible collusion or training between 
cartels and terrorist groups?
    Whoever would like to address that.
    General McCaffrey. That is a good point. You know, I think 
some of this data, you ought to go to the relevant authorities. 
You know, General Petraeus, the agency would have better, more 
relevant testimony.
    What I would say, though, is I have dealt with Mr. Chavez 
and Venezuela over the years, personally, and I have great 
empathy for the problems of Venezuela. But he has acted as a 
platform facilitating some of the goofiest terrorist 
organizations on the face of the Earth, threatening his own 
neighbors and facilitating threats to the United States.
    So we should expect this will happen and part of it will be 
facilitated by the Venezuelan intelligence services.
    General Scales. Just to add to what General McCaffrey said, 
the cartels don't need a lot of help, to be frank with you. I 
was talking to a Texas Ranger who described the cartel 
operation. They had world-class communications that was 
encrypted. They had automatic weapons that, in many ways, were 
superior to those of the Texas Rangers. They had a scout system 
of scouts that were using night-vision devices, third-
generation night-vision devices. They had an operations plan. I 
have even seen a manual for execution and ambushes that was 
taken directly from one of our own military manuals.
    So, if the Iranians are involved, fine. But if someone were 
to describe to me the characteristics of a cartel small unit 
based on equipment, training, technology, I would have, 
frankly, been very impressed.
    Mr. Bilirakis. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. McCaul. Thank you.
    The Chairman now recognizes the gentlelady from New York, 
Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    Thank you, Ranking Member.
    As a resident and representative of the Northern Border, I 
would rather, actually, provide my time to someone who has some 
expertise from Texas, the gentleman from Laredo, Mr. Cuellar.
    Mr. McCaul. Without objection, the gentleman from Texas is 
recognized.
    Mr. Cuellar. Thank you.
    Just for procedure, I get her 5 minutes and then I get my 
additional 5 minutes; is that correct?
    Mr. McCaul. Within my discretion, of course. But, yes, that 
is my understanding.
    Mr. Cuellar. Since I am buying your lunch after this, I 
think it would be in your discretion.
    Mr. McCaul. I am on the Ethics Committee. A Member-to-
Member gift is allowed, so it is okay.
    Mr. Cuellar. All right. Thank you very much.
    First of all, I want to thank all the witnesses for being 
here. I do know that, you know, we all have the same goal, and 
that is to protect our country. We are all in agreement.
    Certainly, I want to thank my good friend, Todd Staples. We 
go back since the State legislature. Appreciate all the work 
that you have done, and the generals and everybody.
    I want to make sure that my friend Michael McCaul 
understands that I just have some questions--and we are all on 
the same page, but I just have some questions. Again, no 
disregard to our military folks, but I just want to ask some 
questions.
    Being from the border, I have three brothers who are peace 
officers. One is a border sheriff. One was a DPS narcotics 
intelligence officer for 27 years. I have two other peace 
officers there. My family lives there. My two kids live there. 
I have lived there all my life. I was Governor Perry's 
secretary of state, so I understand both the border and the 
Mexican side. I used to be the chairman of the budget for DPS 
and the Texas Rangers, so I understand all of that. So I just 
wanted to give you this as a background.
    But my first question: If I could have slide No. 1 go up 
there and ask you all one question. Because the crux of the 
report is this--and, generals, I don't have a problem with what 
is happening in Mexico. I understand it is a very violent 
situation. But I do want to say for the record, I think we have 
the best working relationship that we have had with the 
Republic of Mexico in the last 175 years. The cooperation is 
just amazing. There has been a shift in paradigm in working 
with them. We need to continue working with them.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Cuellar. But there are two things that you all said in 
the report that really upsets a lot of us that live on the 
border, because you make it sound like there are no nice people 
living on the border. One is your quote was, ``Doing business 
in a border county is like doing business in a war zone,'' No. 
1. No. 2, the citizens on the U.S. border, Texas side, are 
under constant attack I think it was 24 hours a day. Those are 
the two points that I want to mention that I am really focusing 
on.
    Let me ask you this. If you look at the chart over there, 
you look at the chart and you will see certain things. You will 
see the border areas--this is the murder rate per 100,000. You 
have El Paso, Brownsville, all that. Then you have Houston, 
Dallas. Longview actually has the highest one, 14.2. Then I 
think the highest ones in the Nation are Gary, Indiana, and New 
Orleans at almost 51 murders per 100,000 itself. By the way, 
Washington, DC, is at 23.
    We are here in Washington. Would you call Washington, DC, a 
war zone?
    General McCaffrey. Well, let----
    Mr. Cuellar. Just a ``yes'' or ``no.''
    General McCaffrey. Questions are never answered with 
``yes'' or ``no.''
    Mr. Cuellar. Well, I am asking you just to----
    General McCaffrey. I am not going to answer a question with 
``yes'' or ``no.'' I think what we are doing is we are----
    Mr. Cuellar. Okay, thank you. Let me----
    General McCaffrey. We are talking by each other.
    Mr. Cuellar. General----
    General McCaffrey. The murder rate in El Paso does not take 
into account the 50 murdered Mexican nationals in that county 
that Dr. Vickers takes into account. If you want to use the 
language ``war zone,'' you have to go to that rural community.
    El Paso is a beautiful, vibrant place, where the hospital 
is so fearful that they want their own police force to guard 
against Mexican criminals coming in to get wounded cartel 
members.
    Mr. Cuellar. General, thank you.
    The other general: Is Washington, DC, a war zone?
    General Scales. No.
    Mr. Cuellar. Okay. But, looking at those numbers, you all 
came out with a conclusion that Laredo, El Paso, McAllen, those 
areas are a war zone; is that correct?
    General Scales. No.
    General McCaffrey. That is not what we----
    Mr. Cuellar. Look at your report. You got paid--you were 
paid $80,000, as former military, of taxpayer dollars to make 
this report; is that correct?
    General Scales. We had five people work 4 months on this 
report. I assure you, you know----
    Mr. Cuellar. I am sorry. Let me----
    General Scales [continuing]. What he makes in a year. I 
assure you----
    Mr. Cuellar. General, with all due respect----
    Mr. McCaul. Will the gentleman yield for a second?
    I do think these are respected generals. I believe we need 
to show them respect and allow them to answer the question.
    Mr. Cuellar. Okay. Well, let me ask my question again. Were 
you paid $80,000, yes or no?
    General McCaffrey. Well, let me ask you, are you suggesting 
that this report had political or monetary motivation? If you 
are, sir, that is a shameful comment----
    Mr. Cuellar. Let me say something General.
    General McCaffrey [continuing]. And you should retract it--
--
    Mr. Cuellar. General? General?
    General McCaffrey [continuing]. Because my dedication to 
this country was based on 32 years of service.
    Mr. Cuellar. General, a statement was just made by your 
colleague there that said, let's cut through the politics. All 
right? It was just said. Also----
    General McCaffrey. You should not turn this into an ad 
hominem attack on my----
    Mr. Cuellar. General?
    General McCaffrey [continuing]. Motivation for this study. 
You, sir, should not raise that point.
    Mr. Cuellar. General? General? I am just asking a simple 
question. Were you all paid $80,000, just yes or no?
    General McCaffrey. You are asking a provocative question--
--
    Mr. Cuellar. Okay. For the record----
    General McCaffrey [continuing]. That I am not going to 
accept.
    Mr. Cuellar. For the record, my understanding is they were 
paid $80,000 for the report. There is nothing wrong. You all 
are making a profit.
    Now, let me ask you----
    General Scales. No, we did not make a profit. We lost a 
considerable amount of money.
    Mr. Cuellar. All right. Eighty thousand dollars.
    Now, let me ask you--let's go--General Scales, let me ask 
you this question. You are a Ph.D. from Duke; is that correct?
    General Scales. Yes.
    Mr. Cuellar. Okay. I am a Ph.D. I am an attorney. I looked 
at your report. I looked at your report. All I found was 
anecdotal evidence. I think, if I would have done my 
dissertation or a report, I would have got an F if I were to 
put no citations, bibliography--and we will talk about your 
bibliography in a few minutes--no footnotes.
    Don't you think anybody that would bring this as a Ph.D. 
would have got an F on their report?
    General Scales. Well, not only have I done a Ph.D., I have 
done 6 books and about 300 scholarly articles. So I know a 
little bit about how to write.
    No, that is not how we did it. What I suggest you do is 
have your staffers go into our bibliography. Most of it is 
available on-line.
    Mr. Cuellar. Okay.
    General Scales. Over 200 citations are on-line.
    Mr. Cuellar. All right.
    General Scales. I did say--but, look, the issue is not--the 
issue is not that. The issue is not about what has happened now 
or what has happened in the last 10 years. What I am concerned 
about is the future. What we are suggesting is, what is 
happening on the Texas border is, in many ways, a canary in the 
coal mine, a----
    Mr. Cuellar. Can you tell me----
    General Scales [continuing]. Harbinger of the future. Our 
concern is that if it is neglected, particularly in the rural 
areas, the Nation will pay a very high price.
    Mr. Cuellar. Can I ask you this question: What scientific 
instrument did you use for measuring this report? What validity 
did you use? Or was it all anecdotal?
    General Scales. No, it wasn't anecdotal. If you would go 
through the report and look at the bibliography, you will see 
that.
    Mr. Cuellar. All right. We will do that in a few minutes.
    Let me ask you this question. Your report cites--and I am 
trying to find your evidence. I am trying to find your 
evidence. But your report, on pages 24-28, uses the anecdotal 
information that is directly picked up from the Texas 
agricultural website.
    Is that the information you used to show the violence on 
the border? Because, apparently, you disagree with the FBI's 
statistics; is that correct?
    General Scales. I agree with the Department of Justice's 
statistics, on which we rely for a lot of this information, and 
also the General Accounting Office and other Federal agencies.
    You know, if you have that much trust in Federal 
statistics, so be it. We added an anecdotal section because we 
thought that the concerns expressed by ranchers and farmers 
were so poignant and so well stated, as Dr. Vickers just did, 
that some type of anecdotal reinforcement of our statistical 
data was probably pretty useful, because it talks about the 
human side of this, not the statistical side of that. You seem 
to be missing that point.
    Mr. Cuellar. Well, let me see what you missed. How many 
people did you interview?
    General Scales. I am sorry, say it again?
    Mr. Cuellar. How many people did you interview for your 
report? How many people did you talk to to make this report?
    General McCaffrey. Well, look, first of all----
    Mr. Cuellar. Let me just----
    General McCaffrey. First of all, it seems to me that this 
report was based primarily on Federal reports that are 
published. Second, it is based on my personal 15 years of 
dealing with the border and Mexico.
    Finally, we added--and Dr. Scales has correctly stated--we 
tried to listen to the voice of Texas law enforcement and Texas 
rural people. That is the basis, the qualitative basis, behind 
this report.
    Mr. Cuellar. My question is very simple. How many 
individuals did you personally interview to come up with this 
report?
    General Scales. I don't know. I interviewed--I interviewed 
several people. I can't give you a number.
    Mr. Cuellar. Is that two? Five? Twenty?
    General Scales. I don't----
    General McCaffrey. Well, I have interviewed people over 15 
years, starting in El Paso in the cross-border meetings.
    General Scales. I will give you a number. I will give you a 
number. I didn't count them. I will say, adding Texas border 
security people, local people, I will say--I will say--here is 
a number: 30.
    Mr. McCaul. The gentleman's time has expired.
    Mr. Cuellar. Is this the 10 minutes?
    Mr. McCaul. The 10 minutes, yes. And I am not sure about 
this lunch we have with the generals now after this Q&A.
    Mr. Cuellar. Let me just close up. Again, I assert that I 
have all the due respect for you all. My only point was this, 
is that I just feel that if you are going to attack the border 
and call it a National--say that it is doing business in a war 
zone, I was just asking what was your information. That is all 
I was asking. I was not getting personal.
    General Scales. Look at the bibliography, go on the web 
sites, come up with the Department of Justice information, 
compare it with the FBI information, and I think that answers 
the question.
    Mr. Cuellar. Well----
    General McCaffrey. Plus, to be honest, Mr. Cuellar----
    Mr. Keating. Mr. Chairman?
    General McCaffrey [continuing]. I think you were getting 
personal. I think that was an uncalled-for remark.
    Mr. Cuellar. I was just----
    Mr. Keating. Mr. Chairman, may I be recognized?
    Mr. McCaul. Yes. The gentleman's time has expired. The 
Chairman now recognizes the Ranking Member.
    Mr. Keating. Thank you, Mr. Chairman.
    I just want to make a couple of points. I would like to 
further ask unanimous consent that Ms. Jackson Lee, a Member of 
the committee, be allowed, in turn, as a committee Member to 
testify.
    No. 2, I want to be very clear about this, as I was before. 
I want to thank the generals that are here for all their 
service. You have represented your country so well, and you 
have our gratitude. As we never would question--at least I 
would never question any of your motives when it comes to our 
country's safety and security.
    Thank you.
    Mr. McCaul. I thank the Ranking Member for his respectful 
comments, and let me add also my respect for these two 
generals, as well, and the work that you have done.
    Let me add also, when we talk about the UCR data, to some 
extent I believe it is flawed in terms of not taking into 
account drug trafficking. It does not take into account--it 
fails to measure kidnapping, home invasions, threats, and 
extortion--crimes widely associated with drug trafficking. Even 
the Congressional Research Service reported that trends in 
drug-trafficking-related crime across the United States are 
currently unknown because Federal law enforcement agencies do 
not systematically track and report drug-trafficking-related 
crimes.
    With that, I am going to recognize the gentlelady, who 
serves on the Homeland Security Committee, Ms. Jackson Lee.
    Ms. Jackson Lee. I thank you.
    I thank the Members who are here. I would ordinarily yield, 
but I have to take this because I am being called to the floor 
with an amendment.
    Let me thank the committee for their questioning and pose 
and say to the witnesses that are here, I think information is 
valuable. I have worked with General McCaffrey when we worked 
together when he was a drug czar here. I have worked with the 
Members who are at this table on the issue of OTMs that also 
weave their way into confusion. That is what I consider on the 
Mexican side of the border, with respect to the drug cartels 
and the violence that can pose a serious terrorist threat 
coming through.
    I don't think anyone denies the existence of the potential 
for violent spillover. Clearly, with the incident of this week, 
making this hearing timely, on the interaction of the Iranian 
assassination plot, drug cartels seeking to pay a drug cartel 
activist, terrorist, if you will, to be engaged in an 
assassination plot, we are not blinded by our championing of 
the region to say that that does not happen. I think the angst 
is when a region is blanketed--and I know that the State 
agriculture department had all good intentions.
    But here are my questions, General McCaffrey, that I want 
to pose. Because I think we should be very clear that I am not 
going to--I view the commitment of the present administration 
as a serious commitment to the needs of the border. It is an 
overwhelming crisis that we are facing.
    So I want, first of all, to have on the record, is this a 
pointed report at the Obama administration for their lack of 
engagement?
    General McCaffrey. Well, let me respond to that.
    Absolutely not. You know, I think Secretary Napolitano and 
her two predecessors, Judge Chertoff and Tom Ridge, started 
with nothing, created 180,000-person department, 23 agencies, 
have enhanced the security of the border enormously. It has 
taken us--when I started working the issue, with your support 
and guidance in your district, we had 4,000 border patrolmen. 
It was laughable. We barely had the border marked.
    So I think, over time, we have done a magnificent, improved 
job, and I have great respect for them.
    Ms. Jackson Lee. Let me--my time is short. So this is a 
systemic problem. We started with almost--I call 4,000 
``zero.'' We are now way beyond that. I have indicated at this 
dais many times of the amendments and submissions we have had 
to enhance Border Patrol.
    Let me get to the point of the violence and sort of the 
gist of this particular report. I think it was important to 
delineate how you just delineated. Because what has happened is 
that the impact of the report--and we want to focus our 
resources--suggests that it is a bloodbath walking through the 
streets of maybe Laredo, El Paso, and that even the law 
enforcement there, even though you spoke to them, are being 
overwhelmed.
    What I would like to hear from you is, No. 1, that you 
distinguish that there are strong law enforcement and also 
local jurisdictions that take no prisoners, when I say in terms 
of tolerating that or working to not have that occur, but that 
from a Federal perspective, going forward even, whatever 
administration comes up, we have a persistent, continuing 
crisis at the border that has a potential impact but there is 
no doubt that the cities at the border are both fighting but 
maintaining a climate of being able to do business.
    Could that be a legitimate statement?
    General McCaffrey. I think you stated it perfectly. I share 
your views.
    Ms. Jackson Lee. I would ask, just as someone who has been 
invited to the border and because of being on this committee--
and, Commissioner, I am not ignoring you; I have an amendment I 
am just trying to--I would ask that we have the opportunity--I 
am a guest in that area, but I would appreciate the opportunity 
for further discussion so that the report that this committee 
now has oversight that the Chairman has allowed me to 
participate in, that the report gets directed to the resources 
that we in the Federal Government need to have to have 
partnership.
    I just ask this final question, Mr. Chairman. Is this an 
appropriate time to cut homeland security funding or to enhance 
homeland security funding for the very points that you have 
made in your report?
    General McCaffrey. Well, again, I think you have summarized 
it, although it is not just resources.
    Ms. Jackson Lee. I understand.
    General McCaffrey. It is also a coordinated Federal 
strategy that is lacking.
    Ms. Jackson Lee. Absolutely. So resources should not be 
cut, but we should have a Federal strategy, but also accepting 
and acknowledging the work that has been done by our local 
cities.
    Thank you, Mr. Chairman.
    General McCaffrey. Absolutely.
    Mr. McCaul. I thank the gentlelady.
    The Chairman now recognizes a good friend and colleague, 
former chief of the Border Patrol, El Paso sector, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Thank you all for your testimony here.
    I just want to thank especially both General Scales and 
General McCaffrey for their service to our country and for 
taking a first cut at putting together a report that I think is 
a first cut and I would recommend that we continue to develop 
this.
    My first question to you, General Scales, is: Did you visit 
or consult with the El Paso Intelligence Center to do this 
report?
    General Scales. No. The intelligence center that I visited 
was the BSOC in Austin, which is----
    Mr. Reyes. Yeah. That is the State one.
    General Scales. Yeah. I went to them. I toured it. I guess 
I went there three times. I had a chance--in fact, if I could 
just give a plug for the State of Texas, that is one of the 
best three-level--tactical, operational, and strategic--
coordination centers that I have ever seen. It ranks with some 
of the best I have seen----
    Mr. Reyes. Okay, but that is in Austin. El Paso 
Intelligence Center is on the border. I am curious, why would 
you not have gone to visit the El Paso Intelligence Center?
    General Scales. That is a good question. Because my partner 
went down there. I was scheduled to go down, but, as you may 
know, I am under treatment for cancer, and I had to----
    General McCaffrey. But let me add to that. I have been in 
and out of the El Paso center 100 times. So I am part of this 
study and well aware of their work.
    Mr. Reyes. Well, General McCaffrey, some of the conclusions 
in the report are contrary to what the El Paso Intelligence 
Center says and would have said to you. But, you know, whether 
we like it or not, this is a political environment. Those of us 
that live on the border, especially me that work that border, 
that have the experience of being a Border Patrol agent and 
then a chief, I have to take umbrage at you saying, General 
McCaffrey, that there is no strategy, that there is no 
comprehensive--that case right there that you were pointing to, 
the Iranian case, that is one great example of coordination and 
great intelligence and law enforcement work.
    I would recommend, Mr. Chairman, that your committee get a 
classified briefing on exactly how that went down, because some 
of the statements that were made here are erroneous. But I 
don't think you have the information. But I would recommend 
that you----
    Mr. McCaul. I have not said anything erroneous. I have been 
briefed on it, by the way.
    Mr. Reyes. You have gotten the classified briefing?
    Mr. McCaul. Yeah.
    Mr. Reyes. Okay.
    Mr. McCaul. But, in any event, yeah.
    Mr. Reyes. Okay. Then you recognize that this was 
outstanding----
    Mr. McCaul. Oh, yeah. I am going to the U.S. Attorney's 
Office in Houston with ICE, DEA, FBI to congratulate them. 
Having been a Federal prosecutor, this was an example of how it 
can work very well--and the coordination with Mexico, by the 
way.
    Mr. Reyes. How things are working.
    Mr. McCaul. Yeah.
    Mr. Reyes. You know, ATF gets criticized for Fast and 
Furious. In the report here, it is mentioned that we ought to 
go after the organizations, not just the straw purchasers. That 
is what they were trying to do. They were trying to do it in a 
joint investigation with Mexico. So that part of it sometimes 
gets ignored in the details.
    I want to also make mention that when we are talking about 
what needs to be done--and there is no tension between what we 
say to defend our community and our border region and the lack 
of resources. The Chairman can tell you, I am advocating for 
more and more resources to come to the border. The one area--
and, by the way, I retired in December 1995. We had 5,600 
Border Patrol agents in December 1995. Today we have over 
21,000 Border Patrol agents.
    But in this time span, post-9/11, we have failed to pay 
attention to the ports of entry. That is where most of the 
narcotics and that is where I would say most of the threat is 
for potential terrorists coming into this country with false 
documents.
    The Chairman knows very well that I have the ``Putting Our 
Resources Toward Security,'' which deals with the ports of 
entry. David Dreier agrees. I am not sure if you are a 
cosponsor or not; I think you are. But we need to focus 
resources on the ports of entry.
    The problem today is that--General McCaffrey, when you made 
the observation that there was never a taillight that turned on 
as the cars were going into Mexico, the problem we have today 
is that those ports of entry were designed exclusively to 
inspect traffic coming north. We have to pay attention to 
remodeling those ports of entry so that our BEST teams and all 
the coordination with the sheriffs and the DPS and others so 
that they can have a safe enough environment to actually screen 
traffic going south through those ports of entry. That is very 
important.
    Last, you know, whether or not the report is looked at as a 
political document or not, you know, what is political, I 
think, is when in the press conference statements are made 
like, fill up your gas tank, get away from El Paso and the 
Federal authorities. Drive down and talk to border sheriffs, 
judges, lawyers, bankers, merchants, ranchers, and farmers, and 
I guarantee you you will get a completely different view. The 
mayor of Eagle Pass, the mayor of Laredo, the mayor of 
Brownsville all say the same thing that the mayor of El Paso is 
saying.
    But the implication here is that, for some reason, El 
Paso--and I think it was a shot at me--and I were trying to 
make some kind of a political statement or cover story or 
whatever. I assure you, just like the Chairman said, I would be 
the last one to question your motives, because I have so much 
respect for all of you.
    I don't know the commissioner, but I will tell you, we 
exchanged letters. There were concerns about the 
ProtectYourTexasBorder.com and some of the statements that were 
made in there by people that were racist. I stand by those 
concerns. But I have tremendous respect for your work, your 
reputation, and I want to work with you to help convince the 
majority here on the House side that we need to pay attention 
to ports of entry. There are currently 33----
    Mr. McCaul. Will the gentleman yield on that? You don't 
have to convince me on that. I yield back.
    Mr. Reyes. But right now, as we are sitting here talking 
about these things, ports of entry all along the U.S.-Mexico 
border are suffering with a 32, 33 percent vacancy rate to as 
much as 38 percent. That is unconscionable. The drug cartels 
know that. They have multiple runners, they have multiple 
spotters. They also, unfortunately, have so much money that 
some officers succumb to corruption, our officers. So it is 
critical that we do everything that we can to protect our 
Southern Border.
    But our Southern Border is not in chaos. It is not a war 
zone. There are tremendous resources that are put to work every 
single day to keep us safe, as reflected by that Iranian case 
most recently. But, you know, if you will agree, I will host 
you at the El Paso Intelligence Center, and you can get a very 
clear understanding of the Federal strategy that exists and how 
they are working both with local, State, and other Federal 
agencies, including Texas DPS. I have seen the----
    Mr. McCaul. Will the gentleman allow the witnesses to----is 
there a question that they can answer? Because it has been 
almost 10 minutes, and it is 12:40. We have votes around 1 
o'clock, and I know that----
    Mr. Reyes. Well, yeah, sure, I will----
    Mr. McCaul. Thank you.
    Mr. Reyes. You know, the frustrating part of this is, in 5 
minutes or 10 minutes, someone that knows what is going on, 
someone that takes issue with some of the things that were in 
the report, we can't get it done. But if you will allow me, for 
the record, I will submit to you a written response to the 
report, if that is okay.
    Mr. McCaul. Without objection.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Reyes. I will give, General Scales and General 
McCaffrey, a copy to you and anybody else that wants it. 
Because I don't want to denigrate the work that you did, but I 
do think there are huge holes in some of the conclusions that 
are there and some of the other concerns that I have.
    I have, again, tremendous respect. I am willing to yield 
and have you comment on anything that I said.
    Mr. Staples. If I could, Congressman, I would like to say 
that I agree with your comments about the ports of entry. We 
need to focus on developing legal trade and ensuring that we 
have the resources there. I think that is a common goal that we 
share with you.
    You mentioned several mayors along the Texas-Mexico border, 
but 93 percent of the border between Texas and Mexico is in an 
unincorporated area, and it is overwhelmingly rural. I would 
hope that today's hearing doesn't devolve into statements of 
one sentence or another in the report, which, by the way, was 
originally stated about being a war zone by a Texas Ranger who 
is living, working, breathing, and fighting the fight in these 
rural areas and a sheriff's deputy that is fighting the fight 
in these areas, and they are on record on 
ProtectYourTexasBorder.com.
    The comments that you made about the website were removed--
and thank you for calling the attention to that--immediately 
upon being notified that there was something that was 
inappropriate.
    The statistics that have been presented here today from the 
Uniform Crime Report, the FBI cites in two different incidences 
on their own website that these statistics must not be taken in 
an isolated viewpoint. In fact, one statement says, ``These 
rankings lead to simplistic and/or incomplete analyses that 
often create misleading perceptions adversely affecting cities 
and counties and their residents.''
    So we are not here today to focus on statistics. The 
purpose of the report was to move beyond what comments might be 
made by elected leaders and to put this into the hands of those 
who have impeccable credentials.
    I think what I have heard, that we are all in agreement 
that we don't want to surrender one part of Texas or one part 
of America to these drug cartel members, and we all want to see 
more resources going to protect these individuals. I thank you 
for that very much. That is what we are asking for.
    General McCaffrey. May I add, I also think your point on 
the border crossings is entirely correct. It is inadequately 
resourced. There is no question about that.
    To further your point, half the illegal entries into this 
country that stay come by air. So it is not just the Customs 
and Border Protection; it is also Transportation Security 
Agency, ICE, and others who have to have a comprehensive 
system. It is not just those magnificent people. I have learned 
a lot from you over the years, listening to you, with your 
experience in the Border Patrol. But it is not just the sworn 
officers. It is the justice system, the detention capability, 
the ability to move these prisoners around that are all part of 
it.
    Finally, returning to Mr. Keating's point, you can't get 
there unless you recognize 10 million illegal migrants in this 
country who are building America's future. We simply have to 
take that along with the border.
    Sir, again, thanks for all I have learned from you over the 
years.
    Mr. McCaul. The gentleman's time has expired. I think that 
was a very constructive question and answer.
    The Chairman now recognizes the gentleman from Houston, 
Texas, Mr. Green.
    Mr. Green. The interloper. Thank you, Mr. Chairman, and I 
thank the Ranking Member, as well, for according me this honor 
to be a part of this august body.
    To all of the witnesses, I have been impressed with your 
testimony, and I thank you.
    But I do have to say this: We have great respect for all of 
you, and we have great respect for our generals. I think that I 
speak for all of the Members of the committee when I say this, 
that we have great respect for you.
    My good friend, Mr. Cuellar, did not have the opportunity 
to give his conclusion. I would like to yield about 30 seconds 
to him for his conclusions, and then I would like to make one 
point.
    Mr. Cuellar.
    Mr. Cuellar. Thank you very much for yielding, Mr. 
Chairman.
    Again, like I said at the very beginning, I respect all of 
you all. I appreciate it. Todd, you and I go back a long way.
    My only point is, living on the border, I just have a 
problem with the conclusions that came out. I mean, the CRS 
report that came out that you recited, if you look at it, it 
comes out with a conclusion that the spillover crime is not 
there. I can point that out. Also, Forbes magazine listed the 
top 25 most dangerous cities, none of them on the Southwest 
Border. The Business Insider listed the top 25 dangerous cities 
in America. They are not listed there.
    All I was trying to do is look at--I like to be scientific. 
I do research. I just want to know: What scientific method did 
we get it?
    We are all in the same boat, as the Chairman--I respect all 
of you. I have peace officer families. I respect the military 
folks. But I will protect the border, no matter who it is. 
Shame on anybody that wants to attack the border. It is a great 
place to live.
    We have been working together in a bipartisan way, Michael 
and myself, with Al Green and all of us. We are all Americans. 
We want to do the right thing. I am just saying, let's do it 
together.
    Again, I thank you very much for all you being here. Thank 
you.
    Mr. Green. Thank you.
    My comments are hopefully going to be well received by all, 
but I especially want to thank the generals, because you are, 
to a certain extent, the genesis of my thoughts today because I 
had other things that I wanted to say prior to hearing your 
comments.
    What you have said about comprehensive immigration reform, 
General, I take very seriously. I think you have made a salient 
point, and the Ranking Member followed up on it, and I would 
like to follow up on it, as well, because there are some things 
that just bear repeating because of the importance associated 
with them.
    Border security is important. There is no question that it 
is important. It is a part of comprehensive immigration reform, 
and we should never forget that it is a part of it. We have 
millions of people in the country that we cannot account for, 
in terms of knowing who they are. We cannot allow a system to 
persist that does not let us know who is in this country. We 
cannot. We cannot focus exclusively on any one area of security 
to the exclusion of other areas that are of paramount 
importance.
    I am saying to you with my 1 minute and 10 seconds left 
that this really is a question of will. There is a way to do 
what we need to do. It is a question of will. The question is: 
Will we take up the responsibility to secure this country? To 
secure this country, we not only take up the component of 
securing the border, we take up comprehensive immigration so 
that we can do as you indicated, General. We have to know who 
is in the country. We have to have a means by which ingress and 
egress for those who are migratory workers can be accounted 
for.
    These are things that we can do. We have not had the will 
to do them. It is kind of shameful, if you want to know the 
truth, from a person who is a Member of Congress. It is 
shameful that we haven't had the will to take up comprehensive 
immigration and put this to rest. We are putting our country at 
risk because we won't step across and embrace each other on 
something that is vital to our security, comprehensive 
immigration--not just one aspect of it or any aspect of it, but 
the entirety of it, so that we can secure all of the people in 
our country.
    Generals, I am going to single you out and say thank you 
again. We are doing some other things that I will talk to you 
about when we get a break here.
    To all of you, thank you for coming. Sheriff, thank you. 
Mr. Vickers, thank you for your report. Mr. Commissioner, thank 
you.
    But I cannot do this without saying to people who have made 
great sacrifice, thank you. I have been around some generals, 
and I know what it means to reach that rank in life. You don't 
get there by being popular; you earn it.
    Thank you. I yield back.
    Mr. McCaul. Thank you, Mr. Green, for your very nice 
comments.
    I just want to close by saying this has been a very 
spirited and lively debate. I think it is a debate we need to 
have as a country.
    I want to thank the witnesses and the generals and the 
commissioner for providing this report, which is so important.
    There is one last point I wanted to touch on. General 
McCaffrey, you mentioned this earlier, and that is the 
intimidation by the drug cartels. Do you believe that they 
intimidate the civilian population?
    General McCaffrey. I don't think there is any question 
about it. You know, again, I think Commissioner Staples really 
got to the heart of the matter of it. When we talked about the 
war along the Texas frontier, that was coming from Texas law 
enforcement and Texas ranchers.
    So I sort of stand behind and defer to the viewpoints, in 
the rural communities, not El Paso and Laredo and the cities 
where we have the FBI and the Border Patrol. These American 
citizens require our Federal protection, and they are not 
getting it. I thank you and all the Members of Congress for 
bringing attention to this issue.
    Mr. McCaul. I think the debate should not be how safe 
various cities are but just the general threat to the State and 
the Nation.
    Do you believe they intimidate the Government?
    General McCaffrey. No. I think it is pretty hard to 
intimidate the Texas State government, and----
    Mr. McCaul. No, no, no. Do you believe that the drug 
cartels intimidate the Mexican government?
    General McCaffrey. Well, thanks to the courage of President 
Calderon and Genaro Luna, the Mexican marines are not 
intimidated by anything. It is astonishing what they have done 
at the risk of their own lives. It is not just their own lives, 
it is their families. It is unbelievable.
    So we owe them. We have an obligation to an economic and 
political, democratically to stand with them in a significant 
way and----
    Mr. McCaul. President Calderon said that it was an attempt 
to replace the state, the drug cartels.
    General McCaffrey. I actually--if I may add, sir, I don't 
think they want to replace the state. I think they want to 
intimidate it. What they want to do is run drugs, prostitution, 
human smuggling, frozen illegal tuna, you name it. These are 
criminal organizations that want to intimidate the Mexican law 
enforcement and haven't done it.
    Mr. McCaul. Do you believe that they do that by extortion, 
kidnapping, and political assassination?
    General McCaffrey. Murder--it is unbelievable. We ought to 
thank God for the courage of the Mexican Army and Marine Corps.
    Mr. McCaul. The reason I brought these questions up, those 
are the elements under Federal law to define terrorism. I know 
in this report there is support for a designation, like 
President Clinton did with the FARC, to designate them as 
foreign terrorist organizations.
    I do that not as a label--you know I introduced this bill. 
I didn't do it to label them, but rather to give us more 
authorities to go after them multi-jurisdictional. I believe 
that that could go a long ways in stopping this threat.
    General McCaffrey. By the way, I wholeheartedly support 
your thought on it. I think it makes U.S. Federal law 
enforcement uneasy. They don't want to see Department of 
Defense and uniformed military, nor do I, taking primacy. I 
think Department of State is concerned that this might be an 
embarrassment to Mexico. But I think you are right on target; 
we should label them what they are.
    I ran into the same problem in Colombia 10 years ago. We 
finally won that struggle and allowed ourselves to identify the 
FARC, the ELN, and the AUC as terrorist organizations on the 
State Department report. We ought to do the same thing to the 
seven Mexican cartels.
    Mr. McCaul. Finally, I just want to give the entire panel 
maybe 30 seconds or a minute to conclude because some of the 
witnesses haven't had--the generals have been testifying a 
great deal. I wanted to give some of the other witnesses a 
moment just to say a few words before we adjourn.
    Commissioner Staples.
    Mr. Staples. Thank you, Mr. Chairman, and thank you, 
Members, for your attention to this very important issue today.
    I think the testimony is very clear that Texas farmers and 
ranchers are asking for your help, and there seems to be the 
agreement that is what is needed.
    No one is suggesting that Texas is not a dynamic State. No 
one is suggesting that our border is not a vibrant portion of 
our economy. What we are saying is that the first-hand 
testimony of farmers and ranchers that they cannot live and 
enjoy their property is something that no American should take 
as status quo and that we will accept.
    Thank you very much.
    Mr. McCaul. Thank you for being here today.
    General McCaffrey.
    General McCaffrey. I would just thank all the Members of 
the committee and Congress for their support you have provided 
since I started working on this issue in 1996. Thank God we now 
are beginning to have institutions that have the resources to 
protect our frontier, and I urge you to continue to support 
them.
    Mr. McCaul. Thank you.
    General Scales.
    General Scales. My suggestion--and, again, thank you very 
much for allowing us to be here. My suggestion parting is to 
get away from the numbers. Murder rates or urban violence or 
the statistics here and there, this is not the issue. It is not 
why we did the report.
    We did the report because we were concerned about the long-
term safety of the citizens of Texas to continued intrusion by 
the drug cartels. I used the phrase earlier in the testimony 
``canary in the coal mine,'' and I believe that to be true 
here.
    Let's not worry about the third decimal point in the 
statistics. Let's look at the report holistically about what it 
represents, and that is an increasing and insidious and very 
violent turn by the Mexican cartels to intrude themselves on 
our thousand cities in the United States, using Texas as their 
rural point of entry.
    So, if the outcome of this report is a continued interest 
by this committee and others on the importance of focusing on 
the rural aspects of the cartel intrusion into Texas, then it 
served its purpose.
    Mr. McCaul. Thank you, General.
    Chief Aguilar.
    Ms. Aguilar. Thank you.
    I just wanted to again stress the importance of continuing 
to provide us with homeland security grant funding and 
providing resources to the local, State, and Federal law 
enforcement agencies.
    I will say that El Paso should be used as a model city of 
best practices, and an interest should be taken as to what is 
it that we are doing so right because of where we sit and how 
successful--the community and law enforcement have a success 
story of working together and doing things right.
    So I am always plugging for the city and saying, come and 
visit and use us as a best-practice model.
    Mr. McCaul. Yeah, I think you have to attribute a lot of 
that to what Congressman Reyes did when he was chief of Border 
Patrol, was hold the line with the physical barricades, the 
fencing. You have the EPIC center there, you have a military 
base. It is a fortress.
    With that, Dr. Vickers to close out.
    Dr. Vickers. Thank you, Chairman.
    January of this year, the Border Patrol in Jim Hogg County 
apprehended 11 backpackers at my ranch gate with 700 pounds of 
marijuana. Down in San Ygnacio in March, my partner heard 
machine-gun fire across the river. Since then, I have heard 
machine-gun fire, working along the river in the San Ygnacio 
area.
    Both of these incidents that I reported in my testimony 
happened in Jim Hogg County. I know for a fact that there were 
at least 40 criminal homicides on illegal aliens in the Laredo 
area and at least one cartel member murdered this year in the 
streets of Laredo.
    I just wanted to let Congressman Cuellar know that all of 
these are in his district.
    Most of the ranchers in that area----
    Mr. Cuellar. Can I respond, Mr. Chairman?
    Dr. Vickers. Most of the ranchers and a lot of ranchers in 
that area, from San Ygnacio all the way to Rio Grande City, 
will not call law enforcement anymore when they see backpackers 
with guns on our side of the river because they fear for their 
lives and their family.
    Mr. Green. Mr. Chairman----
    Mr. McCaul. Thank you for your anecdotal--we need to 
conclude this hearing.
    Let me just say that--thanks again for your testimony. 
While we may disagree on some finer points, I believe that both 
sides of the aisle agree with the overall final objective. What 
we want to do is secure the border and secure the Nation.
    With that, I would ask that we work together toward that 
effort.
    Mr. Reyes. I was going to recommend, and maybe you are 
already going to do it, but I think it is important to bring in 
CBP and officials from the El Paso Intelligence Center----
    Mr. McCaul. We have done that.
    Mr. Reyes [continuing]. And the FBI intel that can 
supplement a lot of what we discussed here today.
    Mr. McCaul. That is a very constructive idea.
    With that, we thank the witnesses, and this hearing is 
adjourned.
    [Whereupon, at 12:59 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
